Office of the Inspector General
Social Security Administration




             Semiannual Report
    October 1, 1999 – March 31, 2000

                                2000
  Office of the Inspector General

                          General
  Mission Statement and Vision

                           Vision
We improve the Social Security Administration’s programs and
operations and protect them against fraud, waste, and abuse by
conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and
advice to Administration officials, Congress, and the public.

By conducting independent and objective audits, investigations, and
evaluations, we are agents of positive change striving for continuous
improvement in the Social Security Administration’s programs,
operations, and management.
                Message from the

                              the
                Inspector General

                          General
I am pleased to release the Social Security Administration’s (SSA) Office of the Inspector
General (OIG) Semiannual Report to Congress for the period October 1, 1999, through
March 31, 2000. This report meets the requirements of the Inspector General Act of 1978,
as amended, and includes other information that is mandated by Congress.

Inside, you will find details about our most significant achievements for this reporting
period. Each component of this office has completed work during this reporting period that
advances SSA’s goal to make SSA program management the best-in-business, with zero
tolerance for fraud and abuse. Our auditors, investigators, and lawyers also joined together
and coordinated with other Federal agencies to take on one of the fastest growing problems
in the Nation, Social Security number misuse and identity theft. They also joined forces to
assist SSA in dealing with vulnerabilities in its Representative Payee Program.

Our investigative operations continued to produce impressive results. The Office of
Investigations reported over $122 million in investigative accomplishments with over
$65 million directly impacting SSA’s programs. The Office of Audit issued 27 reports with
recommendations that over $45 million in Federal funds could be put to better use and
identified over $108,000 in questioned costs. The Office of the Counsel to the Inspector
General (OCIG) had a significant increase in Civil Monetary Penalties for this reporting
period. It reported more during this 6-month period than in all of Fiscal Year 1999 with
$164,758 in penalties and assessments imposed for persons making false statements. In
the area of Misleading Advertising, OCIG imposed $279,500 in penalties, executed
voluntary compliance agreements with three separate entities, issued seven Cease and
Desist letters, and issued a Notice of Proposal to Impose Penalties against five separate
entities.

On March 31, 2000, we marked the 5th anniversary of an independent SSA and our OIG.
While we are one of the youngest OIGs, we are one of the most productive. I am very proud
of our accomplishments and realize they could not have been achieved without a great
effort from OIG staff, the cooperation of the Agency, and the support of Congress.

                                                 Sincerely,





                                                 James G. Huse, Jr.

                                                 Inspector General of Social Security

              Table of Contents

                       Contents
Reporting Requirements                                           ii


Significant Activities                                            1


Office of the Counsel

 to the Inspector General                                         7


Office of Investigations                                         13


Office of Audit                                                  37


Resolving Office of the

 Inspector General Recommendations                               55


Reports Issued From

 October 1, 1999, Through March 31, 2000                         57


Appendices

     Appendix A – Government Performance and

      Results Act Work Plan                                      63


     Appendix B – Reporting Requirements Under the Omnibus

      Consolidated Appropriations Act for Fiscal Year 1997       75


     Appendix C – Significant Monetary Recommendations From
      Prior Reports for Which Corrective Actions Have Not Been
      Completed                                                  77


     Appendix D – Significant Nonmonetary Recommendations
      From Prior Reports for Which Corrective Actions Have Not
      Been Completed                                             79


     Appendix E – Management Decisions With Which the

      Inspector General Disagrees                                81


     Appendix F – Significant Management Challenges Facing the
      Social Security Administration
                            83

                                  i
     Reporting Requirements

               Requirements
The Inspector General Act of 1978, as amended, specifies reporting requirements for
semiannual reports. The requirements are listed below and indexed to their
appropriate pages in this report.


Section 4(a)(2): Review of Legislation and Regulations                     10-11

Section 5(a)(1): Significant Problems, Abuses, and Deficiencies            1-53

Section 5(a)(2): Recommendations With Respect to Significant
                  Problems, Abuses, and Deficiencies                       1-53

Section 5(a)(3): Recommendations Described in Previous Semiannual
                  Reports on Which Corrective Actions Have Not Been
                  Completed                                                77-79

Section 5(a)(4): Matters Referred to Prosecutorial Authorities             7-35
Sections 5(a)(5)
     and 6(b)(2): Summary of Instance Where Information Was
                   Refused                                                 None
Section 5(a)(6): List of Audit Reports                                     57-59

Section 5(a)(7): Summary of Particularly Significant Reports               37-53

Section 5(a)(8): Statistical Table Showing the Total Number of Audit
                  Reports and Total Dollar Value of Questioned Costs        55

Section 5(a)(9): Statistical Table Showing the Total Number of Audit
                  Reports and the Total Dollar Value of
                  Recommendations That Funds Be Put to Better Use           56

Section 5(a)(10): Audit Recommendations More Than 6 Months Old for
                   Which No Management Decision Has Been Made              55-56

Section 5(a)(11): Significant Management Decisions That Were Revised
                   During the Reporting Period                             None

Section 5(a)(12): Significant Management Decisions With Which the
                   Inspector General Disagrees                              81




                                         ii
           Significant Activities

                       Activities
The Office of the Inspector General’s (OIG) components have partnered in a number
of initiatives to capitalize on the skills of our staff and to make the most of our
limited resources. We also work with other Federal and State agencies in those
instances where appropriate. Perhaps our most significant activity for this
reporting period is our continuing efforts in the Social Security number (SSN)
misuse and identity theft area.

SSN Misuse and Identity Theft
OIG’s Office of Audit (OA) provides SSN misuse and identity theft leads to the

Office of Investigations (OI) that have been uncovered during the course of OA’s

reviews. These leads for the most part evolve into investigations that are easily

prosecutable.


OIG’s Identity Theft Task Force members are active in the intergovernmental work

groups that review the extent of the identity theft problem and initiate programs to

solve these problems. One of these is the Department of Justice Identity Theft

Subcommittee of the Law Enforcement Initiatives Committee of the Attorney

General’s Council on White-Collar Crime. This subcommittee gauges whether new

law enforcement initiatives or strategies are needed.


During this reporting period, there were two important events that brought the

private and public sectors together to discuss efforts to address identity theft. The

first of these events was the Canadian Identity Fraud Workshop, which was held in

Toronto in February 2000. Staff members of OIG gave a presentation to

Government representatives from Canada, Australia, and the United Kingdom

regarding identity theft in the United States. OIG staff provided an overview of

identity theft and its impact in the United States that included:


�   The role of SSNs in identity theft crimes;

�   Federal and State government initiatives to combat identity theft (i.e., the

    Identity Theft and Assumption Deterrence Act of 1998, biometrics in entitlement
    programs); and
�   The Social Security Administration (SSA) OIG’s initiatives to combat identity
    theft.

OIG staff also participated in round table discussions with representatives from
other Nations to identify common problems and possible remedies.




                                          1
The second event, the National Identity Theft Summit held in March 2000, was
hosted by the Department of the Treasury in Washington, D.C., and incorporated
five panels to discuss victim issues, prevention measures, and short-term remedies
for both the private sector and governmental agencies. OIG co-coordinated the
prevention panel, which the Inspector General moderated. This panel was designed
to give the attendees ideas and suggestions on how to prevent identity theft.

Since the passage of the Identity Theft and Assumption Deterrence Act of 1998,
which designated the Federal Trade Commission (FTC) as the clearinghouse for
identity theft complaints, OIG developed a referral system that will allow for the
automated transfer of data between the agencies. This referral system will not only
improve our ability to assist victims, but will allow us to detect individuals
committing identity theft more quickly. Based on a recent analysis by FTC, we
estimate that referrals of SSN misuse from FTC could reach 2,000 a month.
Because of this expectation, we are redesigning our systems to capture SSN misuse
referrals in a more defined structure that will delineate SSN misuse by type. In
order to process the thousands of SSN misuse and identity theft allegations we
receive, OI launched SSN misuse pilot projects in five cities across the Nation. Our
investigators provide the lead in working with Federal and State law enforcement
agencies to review allegations and, if warranted, open investigations. During this
reporting period, we opened 656 investigations and presented 351 individuals for
prosecution related to SSN misuse.

To further our fight, we proposed to Congress and SSA that they expand the Civil
Monetary Penalty (CMP) program to include SSN misuse and identity theft
penalties for those cases that are not accepted by the U.S. Attorney’s Office for
prosecution. We have also detailed a lawyer to the Department of Justice to assist
in the prosecution of SSN misuse and identity theft cases.

We expect that SSN misuse and identity theft allegations and investigations will
increase as this crime becomes more widespread and legislative remedies are made
available.

Allegations Received by the SSA Fraud Hotline with SSN Misuse as a
Secondary Complaint

                                             Title XVI-Age
                                                  1.3%        Other
                                                             0.29%
                                                                       Empoyee
                                                                        0.07%


                      Title XVI-Disability
                            44.13%
                                                                         Title II-Retirement
                                                                                  21%




                                                                Title II-Disability
                                                                     41.66%


                                                       2
  Cooperative Disability Investigations Teams
  OIG, in conjunction with SSA’s Office of Disability, administers the Cooperative
  Disability Investigations (CDI) teams. These teams investigate Social Security
  disability benefits and Supplemental Security Income (SSI) disability benefits
  claims that the State Disability Determination Services (DDS) personnel deem to be
  suspicious. The results of these investigations are reported to the DDS to either
  verify or refute the suspicions and also provide sufficient evidence to sustain any
  denials through the appeals process. Seven teams are fully operational and a total
  of 11 teams will be working by the end of Fiscal Year (FY) 2000.

  Below is a statistical breakdown of CDI’s accomplishments.


                                          CDI Statistics
                          (October 1, 1999, through March 31, 2000)
                               Confirmed
              Allegations       Cases of         SSA Recoveries                             Non-SSA
                                                                      SSA Savings*
               Received       Fraud/Similar       & Restitution                             Savings*
                                  Fault

Atlanta           153                82                   $23,851          $4,657,388        $1,567,686

Baton
                   85                18                          0           $910,100           $62,000
Rouge

Chicago            82                11                   $22,991            $460,955          $570,000


New York
                   81                65                   $62,932          $2,389,953          $196,620
City


Oakland           232                98                          0         $5,943,010        $4,072,260


Salem              95                16                          0           $852,496          $301,155

St. Louis          68                24                   $25,507          $1,546,250                   0

Total             796               314                 $135,281         $16,760,152        $6,769,721

  *The methodology used to identify SSA program savings has been developed in consultation with
  SSA’s Office of Disability and the Office of the Actuary. Non-SSA savings are projected, whenever
  another governmental program ceases to pay benefits as a result of CDI investigative reports, using
  the same methodology.




                                                   3
Representative Payees
SSA provides benefits to the most vulnerable members of our society – the young,
the elderly, and the disabled. Congress granted SSA the authority to appoint
representative payees for those beneficiaries judged incapable of managing or
directing their own benefits. Representative payees receive and manage payments
on behalf of these individuals. For the most part, representative payees are honest
individuals who are true caregivers to the beneficiaries. However, there are some
unethical people who will take advantage of these vulnerable individuals. Because
of this, it is imperative that SSA has appropriate screening safeguards and
monitoring plans in place to ensure that representative payees meet their
responsibilities to use funds appropriately.

Recent media attention concerning the Representative Payee Program has focused
attention on the Agency’s monitoring of representative payees. OIG will assist the
Agency by performing independent on-site audits of a limited number of
representative payees. These audits will enable the Agency to identify problem
areas that need to be addressed to ensure that beneficiaries’ benefits are being
managed in a sound fiduciary manner.

Representative payee fraud is also a major focus of OI. It has responded to
allegations involving all types and sizes of representative payees, from individuals
to large-scale organizations who represent hundreds of beneficiaries. During this
reporting period, one of the investigations we conducted was of the Aurora
Foundation, a representative payee located in West Virginia. Aurora Foundation,
Inc. was a high-volume, fee-for-service, organizational representative payee that
served over 140 disabled individuals. Our investigation revealed the president of
the foundation had embezzled over $300,000 between April 1995 through
May 1999 and over $160,000 of the embezzled funds were SSA benefits. The
president of Aurora has since pled guilty to the embezzlement of Social Security,
Veterans Affairs (VA), and private funds and is scheduled for sentencing
June 5, 2000.

Other cases involving representative payees are found in the OI section of this
report.

Federal Records Service Corporation Settlement
In our last Semiannual Report to Congress, we reported a significant misleading
advertising case against the Federal Records Service Corporation (FRSC). During
this reporting period, in conjunction with the U.S. Attorney’s Office for the Southern
District of New York and SSA’s Office of the General Counsel, we reached a final
settlement in this case with the last party involved, FRSC, the Florida Corporation.
Previously, a settlement was reached with FRSC, the New York Corporation, for


                                          4
$845,000. FRSC was a private company that formerly sent direct mail solicitations
to consumers that appeared to be from, or endorsed by, SSA. Their $15 service
consisted of retyping a person’s information onto an SSA application form for name
changes or for a newborn’s SSN. Yet, SSA provides assistance in filling out these
forms free of charge. The settlement included a $237,000 payment to the SSA Trust
Fund.

Year 2000 Transition a Success
Both SSA and OIG had an uneventful transition to the New Year. All systems
remained “go” and no business processes were disrupted. The OIG systems support
staff manned their sites at designated locations throughout the country on New
Year’s Eve and New Year’s Day to assure the continued operations of systems in
OIG offices. In preparation for the calendar change to “00,” we coordinated all our
systems support activities with SSA systems staff to assure that we were prepared
for the transition. During the transition weekend, we tested hardware and software
to assure that all the components of our automated systems would function
normally on the first business day of the New Year. As a result of these efforts,
there was a smooth transition of our systems in OIG with no disruption in service.

Critical Infrastructure Division
In response to the Presidential Decision Directives 62 (Terrorism), 63 (Critical
Infrastructure Protection), and 67 (Continuity of Government), OIG established the
Critical Infrastructure Division (CID). CID is composed of both auditors and
investigators. CID is working with SSA’s System Security Officers and
representatives from SSA’s National Computer Center to define an intrusion
response policy that includes OIG notification and investigation, if warranted. As
SSA becomes more dependent on electronic data, special consideration must be
given to protect the transmission, storage, and processing of this sensitive data from
cyber and/or physical threats. SSA’s systems are critical to customer service
delivery. Technology is rapidly changing in this new electronic age, especially in
the use of the Internet to conduct business. We need to be sure that the appropriate
safeguards are in place to protect SSA’s critical infrastructures and to ensure that
SSA can continue to serve its customers by using technology to its advantage. We
recognize that this mission goes far beyond our traditional audit and investigative
roles.

Included in CID is the Electronic Crime Team (ECT). As SSA is migrating to
“electronic service delivery,” many of its functions on the Internet, the occurrences
of Internet fraud, and criminal activity conducted in an automated environment,
will increase. ECT is designed to meet this challenge. This group provides
technological assistance to investigations conducted by OI Special Agents and the
investigations of intrusions into the network computer systems of SSA.

                                           5
Office of Executive Operations
The Office of Executive Operations (OEO), which merged the Office of External
Affairs and the Office of Management Services, is a new component within OIG that
is responsible for a broad range of functions that communicate the results of our
work with our external stakeholders and provide the internal administrative
support for all OIG activities.

Within OEO, the External Affairs Division is responsible for all our congressional
liaison activities, as well as communications with the press and private citizens who
direct inquiries to OIG. This office is also responsible for our Semiannual Reports
to Congress, preparation of congressional testimony for the Inspector General, and
all other communications with our external stakeholders.

Also under the auspices of OEO is the Quality Assurance and Professional
Responsibility Division (QAPRD). This office conducts site inspections at OA and
OI divisions throughout the country and at Headquarters. QAPRD also
investigates allegations of impropriety received about OIG employees and SSA
senior-executive level staff.

The other offices within OEO provide the internal administrative support for all
OIG components to function. The support functions include personnel, budget,
space management, and systems support that OIG components require on an
ongoing basis.




                                          6
  Office of the Counsel to the

                           the
      Inspector General

                 General
The Office of the Counsel to the

Inspector General (OCIG) provides

legal advice and counsel to the

Inspector General and the various

components of OIG.


OCIG supports OI and OA by

identifying and reviewing legal

implications and conclusions from

audit and investigative findings.


This office is also responsible for

implementing the CMP authority under sections 1129 and 1140 of the Social

Security Act. The CMP authority provides a vehicle to recoup losses and deter

fraud on cases declined civilly and criminally by the Department of Justice, to

advance the Agency’s “Zero Tolerance for Fraud” initiative.


Section 1129 of the Social Security Act – False
Statements
The Commissioner of Social Security has delegated to OIG the authority to impose
CMPs against violators of section 1129 of the Social Security Act. Section 1129
prohibits persons from making false statements or representations of material facts
in connection with obtaining or retaining benefits or payments under titles II or
XVI of the Act. If the U.S. Attorney’s Office declines to take civil or criminal action,
OIG is authorized to impose penalties of up to $5,000 for each false statement or
representation, as well as an assessment of up to twice the amount of any resulting
overpayment. This program continues to grow as our investigative organization
matures. As previously stated in the Significant Activity section of this report,
OCIG reported more CMP activity during this reporting period than in all of
FY 1999.




                                           7
The following table provides details for these activities.

1129 Cases

                                                                        First Half of
                                                       FY 1999
                                                                          FY 2000
Open CMP cases as of the beginning of the
                                                             13                37
reporting period

New CMP cases referred from OI                               41               121

CMP Cases Closed                                             17                71
Open CMP cases as of the end of the reporting
                                                             37                87
period
CMP Penalties and Assessments Imposed                   $110,441           $164,758
Number of Hearings Requested                                 0                 0

The following cases highlight some of the most significant work in this area.

�	   In 1985, a spouse acting as representative payee for his wife began collecting
     disability benefits after she sustained serious injuries in an automobile accident.
     When the couple divorced and the wife returned to work, the ex-husband
     continued to tell SSA that he was married; that his wife did not work; and he
     continued to receive her benefits. This resulted in a $57,361 loss to the
     Government. Although he pled guilty to one felony count of Representative
     Payee Abuse, court ordered restitution was only $657. After initiating a CMP
     action, OCIG obtained a settlement for $65,000.

�	   A mother, serving as representative payee for her daughter, made numerous
     false statements to SSA to conceal her daughter’s death which occurred in
     1994. As a result, she improperly collected SSI payments from August 1994
     through March 1998 totaling $20,656. On January 20, 2000, OCIG imposed a
     penalty and assessment of $62,180. This consisted of twice the amount of
     overpayment from her false statements occurring after October 1, 1994, plus an
     additional $5,000 for each of those false statements.




                                            8
Section 1140 of the Social Security Act – Misleading
Advertising
Section 1140 of the Social Security Act prohibits the use of SSA’s program words,
letters, symbols, or emblems in advertisements or other communications in a
manner that falsely conveys approval, endorsement, or authorization by SSA. Each
misleading communication subjects the violator to a maximum $5,000 penalty. In
enforcing section 1140, OIG is responsible for initiating proceedings, conducting
settlement negotiations, and litigating cases before the Department of Health and
Human Services’ (HHS) Departmental Appeals Board.

The following table shows section 1140 case activity for this reporting period.
Penalties imposed during the reporting period totaled $279,500.

1140 Cases

New Cases Opened                                          16
Cases open as of the end of the reporting
                                                          30
period
Cases Closed                                              17
     No Violation                                          9
     Voluntary Compliance                                  3
     Settlement Agreement
                                                    3 for $254,500
     (# of cases/amount)

     Penalty/Court Action
                                                     2 for $25,000
     (# of cases/amount)

Cease & Desist Letters Issued                              7

Penalty Letters Issued                                     5

Cases Taken to Hearing                                     1

Because of our aggressive tactics against misleading advertisers, OCIG is receiving
fewer complaints of misleading SSA-related solicitations. This demonstrates that
the implementation of the CMP is accomplishing its objective – to prevent and deter
fraud. However, the number of penalty letters issued against companies that have
refused to comply with section 1140 have increased. In cases where companies may
not be violating section 1140 but may be violating State or Federal laws enforced by



                                            9
other Federal agencies, we are referring the complaints to the appropriate agency
for action. The following misleading advertising cases are examples of the work
processed by OCIG in this area during this reporting period.

�	   Senior Direct, under the name “Regional Processing Center,” sent death benefit
     insurance “lead card” mailings to senior citizens that appeared to be from, or
     related to, SSA. When a senior citizen would return the “reply card,” an
     insurance salesperson would try to sell a policy to the individual. We entered
     into a settlement agreement with Senior Direct, Inc., whereby the company
     agreed to pay $17,500 to the SSA Trust Fund.

�	   National Processing Center, an assumed name owned by an individual, also
     profited from death benefit insurance “lead card” mailings sent to senior citizens.
     Shortly after imposing a $15,000 CMP on the owner, OI found the owner picking
     up “reply cards” for similar misleading mailers using a different business name
     and a different post office box. The company owner never appealed the
     $15,000 CMP and we referred the matter to SSA for collection.

Legislative Proposal and Regulatory Comment Reviews
The Inspector General Act of 1978, as amended, authorized the Inspector General to
review existing and proposed legislation and regulations relating to the programs
and operations of the relevant agency. During this reporting period, OCIG reviewed
various legislative proposals related to SSA and fraud, waste, and abuse. In the
course of the review, OCIG sought to ensure that the potential for fraud and abuse
in SSA programs was adequately addressed. OCIG also provided comments on
legislative options proposed by SSA to address specific areas of concern regarding
identify theft.

In this reporting period, we reviewed 13 legislative proposals. One legislative
proposal was the Identity Theft Prevention Act of 2000 (introduced in the Senate)
S. 2328. This bill extends SSA’s CMP authority to impose penalties against
representative payees who convert benefits for their own use, persons who use an
SSN obtained through false information, and persons who use SSNs that they know
are not the true SSNs assigned to them. The bill provides additional protections
from identity theft by requiring issuers of credit to confirm changes of address and
requires consumer reporting agencies to notify the consumer when it becomes
aware that someone is trying to open a new credit card at another address.

We reviewed five regulations that affect SSA. One was the Health Insurance
Portability and Accountability Act of 1996 (HIPAA) privacy regulations. HHS’
proposed regulations implement sections 261 through 264 of HIPAA, Public Law
104-191. The regulations implement privacy and disclosure standards. The types
of information covered essentially include all medical information and the proposed


                                           10
regulations impact the ability to obtain medical information in SSA disability cases.
Essentially, no disclosure may be made without patient consent, except as provided
in the proposed regulations. Due to the many comments received, HHS has not set
a deadline to publish the final regulations.

OIG submitted comments to SSA which were included in its comments to HHS. We
are participating in both an interagency group and an SSA group to review the
50,000 plus responses to the proposed regulations.




                                         11
12

                     Office of Investigations

                               Investigations
      OI conducts and coordinates investigative

      activities related to fraud, waste, abuse,

      and mismanagement in SSA’s programs

      and operations. It investigates

      wrongdoings by applicants, beneficiaries,

      contractors, physicians, interpreters,

      representative payees, third parties, and

      SSA employees. The office also frequently

      conducts joint investigations with other

      Federal, State, and local law enforcement

      agencies. In addition to its 5 Headquarters

      divisions, OI is organized into 10 field divisions nationwide. The Allegation

      Management Division (AMD) operates the SSA Fraud Hotline. The following

      organizational chart outlines the structure of the office.





                                          ASSISTANT INSPECTOR
                                       GENERAL FOR INVESTIGATIONS




                                        DEPUTY ASSISTANT INSPECTOR
                                        GENERAL FOR INVESTIGATIONS




10 FIELD DIVISIONS                     ALLEGATION
                      ENFORCEMENT     MANAGEMENT                 STRATEGIC   MANPOWER AND         CRITICAL
      Boston           OPERATIONS        DIVISION              ENFORCEMENT   ADMINISTRATION   INFRASTRUCTURE
                        DIVISION    (SSA Fraud Hotline)           DIVISION      DIVISION          DIVISION
     New York

    Philadelphia

      Atlanta

      Chicago

      Dallas

     St. Louis

      Denver

    Los Angeles

      Seattle




                                                          13
OI focuses its work in the eight areas in SSA’s programs and operations that have

potential for widespread fraud and abuse. These areas are:


�   Financial Institution Fraud with Employee Involvement

�   Employee Fraud

�   Disability Fraud

�   SSI Eligibility Fraud

�   Institutionalization

�   Payments Made to Deceased Individuals

�   SSN Misuse

�   Representative Payees


During this reporting period, we opened 4,277 new investigations, closed

4,069 cases, and reported $122,864,354 in recoveries, fines, settlements/judgments,

restitution, and estimated savings (see the following two tables). The following

sections describe the work and highlight selected investigations.



                          Investigative Statistics
         Allegations Received                           44,944
         Cases Opened                                    4,277
         Cases Closed                                    4,069
         Total Convictions                               1,169
               Illegal Alien Apprehensions                 68
               Fugitive Felons                            479
               Court Actions                              622




                                         14
  Funds Reported


                                                                   Non-SSA
                                   SSA Funds                                                  Total Funds
                                                                   Funds*

Scheduled Recoveries                        $5,881,826                      $704,517                     $6,586,343

Fines                                       $1,200,634                      $279,005                     $1,479,639
Settlements/
                                              $858,486                    $6,507,210                     $7,365,696
Judgments
Restitution                                 $6,633,043                  $42,105,872                    $48,738,915
Estimated Savings                         $51,190,451                     $7,503,310                   $58,693,761

Total                                     $65,764,440                   $57,099,914                  $122,864,354
  *Non-SSA Funds represent monies attributed to other government organizations and financial institutions that
  benefit from the results of OI’s investigative work.


  The SSA Fraud Hotline
  The SSA Fraud Hotline provides an avenue for reporting fraud, waste, abuse, and
  mismanagement within SSA’s programs and operations.

  During this reporting period, the Hotline received 44,944 allegations. Almost
  97 percent of the allegations received fall into four main categories: SSN misuse
  (22,408 allegations), Title XVI Disability (9,777 allegations), Title II Disability
  (8,200 allegations), and Title II Retirement (3,059 allegations).

  Since the passage of the Identity Theft and Assumption Deterrence Act of 1998,
  OIG has taken a proactive approach in the investigation of identity theft crimes. In
  an effort to assist law enforcement agencies in the detection of individuals
  committing identity theft crimes, AMD is preparing to provide FTC with
  information on identity theft allegations.

  The following two pie charts provide detail to the sources of allegations and
  allegations by category.




                                                         15
Sources of Allegations




                                           SSA
                                         Employees                  Private
                                           9.0%                     Citizens
                                                                     48.6%
                   Anonymous
                     28.4%

                                                                               Other
                                                                               0.4%
                         Public
                        Agencies                                        Law
                          3.4%                 Beneficiaries        Enforcement
                                                  2.4%                  7.8%




Allegations by Category




             Title XVI-Disability
                    21.8%                                                  Social Security
                                                                             Numbers
                                                                               49.9%

             Title XVI-Aged
                   0.6%


                                                                          Employee Related
                                                                               0.6%
          Title II-Disability
                18.2%
                                                            Other
                                Title II-Retirement         2.1%
                                         6.8%




                                                      16

Investigation of SSA Employees
While employee fraud comprises the fewest number of allegations and cases, it will
always remain an OI priority. One employee working alone or with conspirators
can corrupt the computer system, cause financial losses to the Trust Fund, coerce
claimants and other employees, and undermine the integrity of SSA’s programs. In
ongoing cooperative efforts with financial institutions, OI has identified 12 SSA
employees who provided confidential SSN data to individuals who used the
information to fraudulently activate credit and debit cards. During this reporting
period, we identified over $1 million in fraud losses to financial institutions.

During this reporting period we opened 42 employee investigations, closed
64 employee investigations, and took judicial actions that resulted in the conviction
of 20 SSA employees.

The following cases highlight OI’s efforts in this area.

Financial Institution Fraud with Employee Involvement
One SSA Employee and Two Co-Conspirators Arrested and Convicted for
Selling SSA Systems Information

An SSA employee who worked as a Contact Representative in an SSA Teleservice
Center in Los Angeles, California was providing her boyfriend with information
from unauthorized queries of the Modernized Claims Systems/Customer
Information Control Center transaction files. The investigation disclosed that the
information was then passed to another subject and his associates to commit credit
card fraud. Our analysis identified $545,212 in credit card fraud attributed to
accounts associated with this employee. As a result, the employee was terminated
from SSA and prosecuted in Federal court on charges involving conspiracy to
commit credit card fraud. The employee was sentenced to 2 months’ home
detention with electronic surveillance and 3 years’ probation. A co-conspirator was
sentenced to 12 months and 1 day of incarceration with 3 years’ probation. The
third subject was sentenced to 21 months of incarceration with 3 years’ probation.
All three individuals were ordered to pay restitution totaling $545,000.

SSA Systems Information Sold to Credit Card Fraud Ring

An SSA Service Representative in Staten Island, New York was arrested on charges
involving computer fraud. The employee subsequently pled guilty to selling SSA
systems information to a credit card fraud ring. The employee cooperated in the
investigation, making consensually monitored telephone calls and conducting
several monitored meetings with another target to whom the employee provided
SSA systems information for cash. On February 4, 2000, the employee was

                                          17
sentenced to 3 years’ probation and ordered to pay restitution of $200,000 to the
defrauded financial institutions. Two co-conspirators have also been sentenced and
ordered to pay restitution. A third is awaiting sentencing.

Former SSA Employee, Daughter, and Daughter’s Fiancé Successfully
Prosecuted in Connection with Using SSA Systems Information to Commit
Credit Card Fraud

OI conducted an investigation into the illegal activities of an SSA Service
Representative in Huntington Park, California who was providing her daughter and
her daughter’s fiancé with SSA systems information that was used by the fiancé
and others to commit credit card fraud. Fraud analysis identified $393,332 in credit
card fraud attributed to accounts associated with this employee.

All three subjects were prosecuted on charges involving unauthorized queries of the
SSA computer system, credit card fraud, and conspiracy. The former employee, her
daughter, and the fiancé were sentenced on February 14, 2000. They were
incarcerated and ordered to pay restitution in the amount of $257,577.

Selling SSA Systems Information Results in Imprisonment

A former SSA Contact Service Representative in Jamaica, New York was involved
in selling SSA systems information, used to activate stolen credit cards. The
employee was identified through the cooperative project between OIG and several
financial institutions. On January 28, 2000, the former employee received a jail
sentence despite her cooperation in this investigation because of her prior arrest
and conviction in an unrelated stolen check case. She was also fined $100.

Defrauded Financial Institutions to be Repaid $200,000

OI, the U.S. Postal Inspection Service, and the U.S. Secret Service conducted an
investigation that determined that an SSA Service Representative in Staten Island,
New York sold SSA information to another individual who used the information to
defraud financial institutions. The employee was arrested and charged with misuse
of a Government computer. She pled guilty and resigned from her position. The
employee was sentenced to 3 years’ probation and ordered to pay restitution of
$200,000 to the defrauded financial institutions.




                                         18
Employee Fraud
Bribery of a Corrupt Public Official

Beginning approximately March 1996, a former SSA employee in Fresno, California
processed over 300 fraudulent applications for SSN cards. Three co-conspirators
sold the SSN cards for between $400 and $1,400 to people who could not otherwise
obtain them legally.

SSA subsequently mailed the fraudulent SSN cards to mail drops. We based the
investigation on information provided by the manager of the SSA Southeast Fresno
District Office and the SSA Security Integrity Team after a security review revealed
that SS-5 applications processed by the employee were missing. The former SSA
employee was sentenced to 12 months’ incarceration and 36 months’ supervised
release after pleading guilty to bribery of a public official. He was ordered to forfeit
the $12,400 in cash he accepted as a bribe to fraudulently process the SSN
applications.

SSA Employee and Municipal Government Employee Conspire with More
Than 20 Individuals to Defraud SSA

The New York Field Division, the Federal Bureau of Investigation (FBI), and the
U.S. Postal Inspection Service conducted an investigation in Puerto Rico of an SSA
employee and his co-conspirator, an employee of the Las Piedras Municipal
Government, Las Piedras, Puerto Rico, who conspired with 20 individuals to
illegally obtain approximately $369,085 in SSA Old-Age, Survivors and Disability
Insurance (OASDI) benefits. The investigation revealed that the co-conspirator
recruited the individuals to file fraudulent OASDI applications, and he provided
some of the individuals with fake baptismal certificates. The employee illegally
accessed SSA’s system to change the date of birth of the individuals and then
processed the OASDI applications. The employee and his co-conspirator received
approximately $70,832 for their services from the 20 individuals. Both pled guilty
to conspiracy. The employee was sentenced to 5 months’ home detention and
2 years’ supervised release. The co-conspirator is scheduled to be sentenced in
May 2000.

Two Individuals Bribe an SSA Employee to Illegally Process SSNs

The Boston Field Division and the Connecticut Organized Crime Drug Enforcement
Task Force conducted an investigation of an SSA employee who accepted bribes to
fraudulently process SSN card applications. The investigation identified
131 fraudulent SSN card applications processed by the employee and determined
that two individuals paid the employee to process the fraudulent SSN card
applications. The employee pled guilty to accepting a bribe and was incarcerated.


                                           19
The two individuals that paid the employee to process the fraudulent SSN
applications pled guilty to bribery of a public official. They were incarcerated and
ordered to perform 100 hours of community service. All three were ordered to pay a
total fine of $14,400.

Administrative Law Judge Incarcerated for Defrauding SSA

An administrative law judge (ALJ) from the Office of Hearings and Appeals,

San Rafael, California applied for Social Security survivor’s benefits for her

daughter after the death of her ex-husband. The ALJ was convicted of perjury for

lying under oath at an SSA hearing when she stated that she was not divorced from

her husband when in fact she was. The ALJ was also convicted of making a false

statement to SSA when she requested a reconsideration of the denial of benefits for

her daughter and wrote that she was not divorced from her husband. She was

initially awarded $7,164 in retroactive benefits for her daughter and $803 a month

in continuing benefits.


The ALJ was sentenced in U.S. district court for the Northern District of California.

She was ordered to pay a fine of $30,000 (the maximum amount possible given her

range within the sentencing guidelines), incarcerated, and ordered to perform

200 hours of community service. The Special Counsel Staff, Office of Hearings and

Appeals, Falls Church, Virginia, referred this case to OIG. The ALJ is currently in

a nonpay status pending SSA administrative action to remove the ALJ from Federal

service.


Access Made to Suspended Benefit Accounts

A former SSA Service Representative in Washington State made unauthorized
access to numerous suspended benefit accounts; reactivated the accounts; and
caused benefits to be directly deposited to bank accounts belonging to her
associates, family members, and herself. She also generated fraudulent documents
causing retroactive SSI benefits to be issued via checks and electronic deposits. She
was sentenced to 6 months in prison, 4 months’ electronic home detention, 3 years’
supervised release, and ordered to make restitution of $97,413.

Disability Fraud
Disability fraud allegations represent 40 percent of the allegations received by the
SSA Fraud Hotline. Instances of disability fraud are reported to, and investigated
by, our field divisions nationwide.

As highlighted in the Significant Activity section of this report, OIG in conjunction
with SSA’s Office of Disability, administer the CDI teams. The following
summaries highlight the significant work done in this area.


                                          20
Atlanta

This team investigated a Georgia man who concealed his work activity in order to
file a false initial claim for Social Security disability benefits. The man, who had
many relatives file fraudulent disability claims in the past, alleged that he was
unable to work because of mental impairments. CDI investigators found witnesses
who confirmed the claimant’s recent work activity and provided sufficient
information to refute the alleged mental impairment. The DDS used the CDI
team’s investigative report to deny the man’s claim, which resulted in projected
program savings of $66,500.

Baton Rouge

This team investigated a Louisiana woman who made false statements and
concealed 5 years of work activity in order to collect more than $21,000 in SSI
disability benefits to which she was not entitled since 1983. The woman alleged
that she was unable to work due to mental impairments that reportedly prevented
her from driving, working, shopping, or doing household maintenance without
assistance. CDI investigators found that the subject holds a valid driver’s license
and observed her driving alone. Surveillance revealed the woman’s place of
employment, where witnesses confirmed her 20-year work history there. The
Department of Labor similarly documented the claimant’s earnings. The DDS used
the CDI team’s investigative report to cease the woman’s benefits. As a result, SSA
realized projected program savings of $22,530.

Chicago

This team investigated an Illinois man who since January 1999 collected more than
$7,000 in SSI disability benefits using a false identity in addition to the benefits he
was already receiving for a bona fide disability under his true name. The ruse was
discovered when a DDS claims adjudicator spotted medical documentation that
appeared to contain altered identity information. CDI investigators interviewed the
claimant and obtained his signed admission of fraud.

The DDS used the CDI team’s investigative report to disallow the claim filed under
the false identity, and the duplicate payments were ceased. As a result, SSA
realized projected program savings of $30,720.

New York

This team investigated a New York woman who made false statements in support of
an initial claim for SSI disability benefits. The woman alleged that she was unable
to work due to a severe psychological disability that prevented her from doing
household chores, shopping, driving, having contact with others, or going outside


                                          21
alone. CDI investigators observed the claimant during an eligibility review, at
which she clutched a stuffed animal and was mute as her daughter answered
questions for her. Surveillance later the same day showed the subject conversing,
laughing, traveling by herself, driving, and visiting a social club. The DDS used the
CDI team’s investigative report to deny the claim and, therefore, save an estimated
$66,500.

Oakland

This team investigated a California man who feigned physical impairments in order
to collect more than $317,418 in Social Security disability benefits since 1979. The
man alleged that he was unable to work because of a debilitating back injury that
made it painful for him to move and prevented him from bending more than
40 degrees. An anonymous letter reported that the man was observed water skiing
and showed no apparent physical limitations while collecting benefits. CDI
investigators placed the man under surveillance and observed him walking into a
medical examination with a limp and walking normally at his residence later that
same day. On other occasions he was again observed walking normally and bending
90 degrees in order to lift a heavy, motorized wheelchair into the back of a pickup
truck. Using the CDI team’s investigative report, the DDS ceased benefit
payments. SSA realized projected program savings of $97,740.

Salem

This team investigated an Oregon woman who faked physical impairments and
concealed work activity in an attempt to gain SSI disability benefits. The woman
claimed to suffer from fibromyalgia, sleeping problems, constant illness, an inability
to walk, and relied on a wheelchair that prevented her from working, shopping, or
doing household chores without a caretaker. CDI investigators found that the
subject had a valid driver’s license, drove a vehicle without any special handicap
equipment, and worked from 1995 to 1999 as a casino beverage server. They also
observed her standing unassisted at her residence, which lacked wheelchair
accessibility and where a wheelchair had been discarded in the yard. The woman’s
application was denied, and SSA realized projected program savings of $66,500.

St. Louis

This team investigated a Missouri man who feigned physical and mental
impairments in order to collect more than $75,000 in Social Security disability
benefits since 1987. The man alleged that he was unable to work because of back
problems and depression. CDI investigators nonetheless determined that the man
built his own home while collecting disability payments. Witnesses observed him
unloading materials at the residence and working on most phases of construction.
When interviewed by investigators, the man acknowledged that he is capable of


                                          22
full-time work. The DDS used the CDI team’s investigative report to cease the
man’s benefit payments. As a result, SSA realized projected program savings of
$48,780.

Other Disability Investigations
Director Instructs Clients on How to Defraud SSA

A former director of an AIDS resource center in Texas, with the assistance of a
co-conspirator, defrauded the Social Security and SSI Programs by instructing
clients to conceal work, living arrangements, and assets in order to qualify for
benefits not otherwise due to them. They were also convicted of fraud, conspiracy,
aiding and abetting, money laundering, and controlled substance violations. They
were both found guilty by a jury on more than 70 counts, including Social Security
fraud. On March 24, 2000, a Federal district court judge sentenced the former
director to 14 years imprisonment and was ordered to pay over $76,000 in
restitution with $11,000 being paid to SSA. The co-conspirator was sentenced to
70 months’ imprisonment and was ordered to pay restitution the same.

Man Agrees to Make Full Restitution

A resident of Monroe, Louisiana intentionally failed to notify SSA of his work in
order to continue receiving his Social Security disability benefits. He also collected
auxiliary benefits for two ex-stepchildren that were no longer living with him. This
investigation was the result of a referral from the SSA Monroe, Louisiana Field
Office. The SSA OIG Houston, Texas Suboffice found that the loss to the
Government was $45,244 because of the subject’s actions. The man pled guilty to
one count of concealing or failing to disclose an event with intent to fraudulently
secure disability payments. He was sentenced to 4 months’ home confinement and
received a $1,000 fine, and was ordered to make restitution in the amount of
$39,244 to SSA, since he had already repaid $6,000 to SSA.

Man Incarcerated and Ordered to Repay SSA $136,475

The Philadelphia Field Division conducted an investigation of a Virginia man who
was receiving disability benefits and working under an alias and an invalid SSN.
When OI interviewed the man, he denied that he was the beneficiary. The
investigation determined that the individual was the beneficiary and that he
worked under the assumed identity from 1987 to 1999 while receiving Social
Security disability payments. The man pled guilty to Social Security disability
fraud and making false statements to a Federal Agent, was incarcerated and
ordered to make restitution of $136,475 to SSA.




                                          23
SSI Eligibility Fraud
OIG established the SSI Eligibility Fraud Initiative to identify ineligible SSI
recipients, stop fraudulent payments, recover monies, and initiate administrative
actions and criminal investigations when possible. In FY 2000, the primary theme
driving the project continues to be focused on identifying SSI recipients who may
not reside in the United States, may be deceased, or may be fictitious – and who
have not had an SSA face-to-face interview within 1 year.

During this reporting period, a project in New York, initiated through a partnership
with SSA, selected a sample of 15,912 SSI recipients for evaluation. Typically, this
evaluation involves SSA conducting face-to-face interviews of recipients to
determine their continued eligibility for SSI payments. OIG reviews all project
results for potential criminal and civil case development. In this reporting period,
the project identified 2,962 potential subjects who were overpaid, suspended,
or terminated and 135 subjects were found to be deceased. We also sampled
7,945 recipients in New Jersey in which we identified 1,900 potential subjects who
were overpaid, suspended, or terminated and 50 subjects who were deceased. We
expect this project to be completed by the end of this fiscal year.

In addition to this project, the following cases highlight OI’s work in the SSI
Eligibility Fraud area.

Woman Sentenced for Concealing Assets

The Seattle Field Division investigated a case in Idaho where an individual had
received SSI benefits from August 1989 through April 1998 based upon her claims
of having no resources or income. The investigation revealed that the recipient in
fact owned two houses (not including her residence), a motor home, and
approximately $90,000 in stocks during the time she received benefits. The
individual was incarcerated and ordered to pay restitution in the amount of
$44,147 to SSA and $61,404 to the State of Idaho Welfare program.

Three Individuals Conspired to Divert SSI Checks

The New York Field Division and the U.S. Postal Inspection Service conducted an

investigation of three individuals who conspired to commit SSI fraud. The

investigation determined that the individuals were engaged in double check

negotiations of their own SSI payments. The individuals cashed their original SSI

checks, called SSA and filed a non-receipt for the checks, and then cashed the

replacement checks. They also conspired to divert the SSI checks of other recipients

to their address. The individuals telephoned other SSI recipients in the

Buffalo, New York area and posed as SSA employees to obtain personal

identification data from their victims. The individuals then called the SSA



                                          24
800–number, impersonated the SSI recipients, and diverted the recipients’ SSI
checks to their own address. The individuals pled guilty to mail fraud, conspiracy,
and Social Security fraud. The three individuals were sentenced and ordered to pay
restitution of $22,270 to SSA.

Recipient Failed to Report Marital Status

An investigation by the OIG Cleveland Suboffice showed that an SSI recipient
failed to report to SSA that she was married and concealed her husband’s income.
Additionally, she made false statements to SSA in order to continue receiving SSI
benefits. The U.S. Marshals Service (USMS) and an OIG investigator arrested the
subject and an additional warrant was executed for her failure to appear for
sentencing. After pleading guilty to a one-count indictment of defrauding SSA, she
was sentenced to 4 years of probation. The subject is to participate in the Home
Confinement Program with electronic monitoring for a period of 6 months. In
addition to the probation ordered, she is required to make restitution to SSA in the
amount of $29,765.

Institutionalization
In most instances, the Social Security Act prohibits SSI payments to individuals
who are confined or reside in a public institution for a full calendar month. The Act
also prohibits OASDI payments to individuals who are confined in a penal
institution after being convicted of an offense punishable by imprisonment for more
than 1 year and those individuals who are confined by court order to an institution
at public expense in connection with specific verdicts or findings in certain criminal
cases.

The following cases highlight OI’s effort in this area.

Woman Conceals Husband’s Incarceration to Receive Disability Benefits

OI conducted an investigation of a woman who made false statements to SSA to
conceal her husband’s incarceration to assure that his disability benefits would
continue. During her husband’s incarceration, the woman told SSA that her
husband was at home in her care. When the South Carolina Department of
Vocational Rehabilitation requested that the man have a physical examination, the
woman stated that she was caring for her husband at home and that he was too sick
to come in for the exam or to speak on the telephone. The investigation determined
that the man was unable to appear at the examination or to speak on the telephone
with the examiners because he was serving a 14-year jail term for trafficking in
crack cocaine. The woman pled guilty to Social Security fraud, was sentenced, and
ordered to make restitution of $14,089 to SSA.



                                           25
 Sister Convicted for Failing to Report Her Brother’s Incarceration

 OI conducted an investigation of a Florida representative payee who failed to notify
 SSA that her brother was incarcerated. The woman was representative payee for
 her brother’s SSI payments. The investigation determined that the SSI recipient
 was incarcerated for approximately 3 years for violation of probation from
 2 previous charges, sale of cocaine, and aggravated battery. During this time his
 sister continued to receive SSI payments on his behalf that he was not entitled to
 receive. The woman pled guilty to an indictment that charged her with failure to
 report an event having an affect on the continued receipt of SSI benefits. She was
 sentenced and ordered to make restitution of $15,619 to SSA.

 Woman Convicted for Making False Statements

 The OIG’s Houston, Texas Suboffice investigated a case in which the representative
 payee made false statements to SSA about the SSI recipient’s living arrangements
 and how she had used the SSI funds she received. The investigation determined
 that the woman had indicated the SSI recipient was residing with her, and she had
 been using the SSI funds she was receiving on his behalf. The Louisiana
 Department of Corrections had actually incarcerated the SSI recipient during this
 period of time. He was sentenced to life in prison as a habitual drug offender.

 The woman was charged in a two-count indictment with making false statements.
 She pled guilty to the charges listed in the indictment, and on January 19, 2000,
 was sentenced to 18 months in the United States Bureau of Prisons system and
 ordered to make restitution to SSA totaling $18,168.

 Fugitive Felon
 The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
 (commonly known as the Welfare Reform Act) made individuals ineligible to receive
 SSI during any month in which the recipient is fleeing to avoid prosecution for a
 felony; fleeing to avoid custody or confinement after conviction for a felony; or
 violating a condition of probation or parole imposed under Federal or State law.
 Because of this change in the law, OI initiated the Fugitive Felon Project with other
 Federal, State, and local law enforcement agencies.

                       Statistics for the Fugitive Felon Project
                      (October 1, 1999, through March 31, 2000)
                    Fugitives          Fugitives                           Estimated
                                                      Overpayments
                    Identified         Arrested                             Savings

Cumulative            1,477               475           $11,439,369       $18,183,235


                                          26
The following cases highlight OI’s effort in this area.

Alleged Rapist Arrested through National Data Match

In November 1999, OIG investigators in New York arrested a man who had both
Federal and State outstanding arrest warrants in connection with the alleged rape
and aggravated molestation of a child. The man, who at the time of his arrest was
receiving SSI benefits, was located through a national data match that compares
the names and identifying information of active SSI recipients with the names and
identifying information of Federal fugitive felons. The subject was arrested at his
address of record and remanded to the USMS for transportation back to Georgia.
Since fugitive felons and incarcerated individuals are ineligible to receive SSI
benefits, payments to the man were suspended.

Investigators Aid in Arrest of Violent Offender

OIG investigators in New York arrested a man in October 1999 who was wanted in
that State for burglary in the second degree and identified by State authorities as a
violent offender. State and SSA OIG investigators working together determined
that the man was receiving SSI benefits and arrested him as he left the Federal
building in Syracuse following an appointment with SSA officials. He subsequently
was turned over to local authorities. The man’s SSI payments were suspended.

Payments Made to Deceased Individuals
OI frequently receives allegations about individuals who are illegally receiving
Social Security payments intended for beneficiaries who are actually deceased.

Because of the frequency of these referrals, OI has implemented projects to identify
unreported deaths and those individuals who negotiate payments issued to
deceased individuals.

For example, OI participates with SSA and its field offices in the Nonagenarian
Project. The Nonagenarian Project was previously known as the Centenarian
Project, but was renamed after individuals 98 years old and above were included for
review. The FY 99 Nonagenarian Project required field offices to contact Social
Security and SSI beneficiaries who were born in 1900 and 1901 and attained age
99 and 98, respectively in 1999. By November 1, 1999, 87,955 beneficiaries had
been identified and staff had verified that the payments were correct. As SSA
completes its review process, staff continue to refer suspicious cases to OIG. So far,
we have received 165 referrals.




                                           27
The following cases highlight some of OI’s work related to this area.

Over $224,000 Ordered in Restitution

The Washington Suboffice and the Office of Personnel Management (OPM)
investigated a Virginia woman who continued to receive and use OPM and Social
Security benefits of her deceased mother. The woman pled guilty to Theft of
Government Funds and was sentenced and ordered to pay restitution of $89,849 to
SSA and $134,746 to OPM. At the time of her sentencing, the defendant made an
initial restitution payment of $142,500.

Civil Judgment for Concealing Father’s Death

From August 1995 until September 1997, a Salt Lake City, Utah man continued to
receive and spend a total of $25,233 in Social Security benefits intended for his
deceased father, who had died in July 1995. An SSA employee who had attempted
to contact the man’s father in response to a Death Alert referred the case to OI. The
man, an employee of a major Utah bank, subsequently lied to the SSA employee
about the whereabouts of his father. Under the False Claims Act, he was ordered to
repay the Federal Government a total of $86,019, three times the amount of Social
Security funds defrauded and a $10,000 civil judgment.

Pennsylvania Woman Sentenced for Fraudulently Receiving $109,622 in
Benefits

OI conducted an investigation involving a woman who failed to report the death of a
beneficiary, a housemate, and fraudulently received $109,622 in benefits. SSA
referred the case in 1999 after attempts to contact the beneficiary during an
unsuccessful review of the case. The investigation determined that the beneficiary
had died in 1986. The woman pled guilty to failing to disclose and concealing an
event affecting the right to benefits. She was sentenced and ordered to make
restitution of $109,622 to SSA.




                                         28
SSN Misuse
As noted in the Significant Activity
section of this report, the expanded
use of the SSN as an identifier
provides the opportunity for
unscrupulous individuals to misuse
SSNs to their own advantage.

Since the passage of the Identity
Theft and Assumption Deterrence
Act of 1998, OI has accelerated its
focus on SSN misuse investigations.

Program Cases

Man Collects $312,058 During Nearly Two Decades of Fraud

An investigation by the SSA OIG Des Moines, Iowa Suboffice found that the subject
used an alias and a false SSN in order to conceal his work activities and earnings
over nearly 2 decades. The subject began receiving Social Security disability
benefits in the late 1970s. During the course of the investigation we found that he
obtained another SSN under an assumed name. He returned to work in 1980 under
the false identity and the new SSN. He failed to report to SSA that he received
substantial wages during the years 1980 through 1996. The subject was sentenced
to 1 year in prison and ordered to make full restitution to SSA in the amount of
$312,058.

Man Sentenced for Assuming a Fictitious Identity in Order to Conceal Work
Activity

The Philadelphia Field Division investigated a case in Maryland where a man who
had received both SSI and Social Security benefits deliberately failed to notify SSA
that he had returned to work. The investigation revealed that the man created and
assumed a fictitious identity that he used to work. He received $15,340 in
unauthorized benefits using the fictitious identity. The man was sentenced to
4 years’ confinement, 36 months’ probation, and ordered to pay $15,340 in
restitution to SSA.

Woman Ordered to Pay Over $92,600 in Restitution

The Los Angeles Field Division investigated a case in California where a woman
fraudulently used two SSNs to receive benefits from SSA. The investigation
determined that she was able to obtain benefit payments based upon her false


                                         29
statements to SSA. She was also able to fraudulently obtain State welfare
payments after failing to report the receipt of the SSA benefits. During this
investigation, OIG agents seized from the woman SSN cards, Medi-Cal cards, and
California driver’s license/Identification Cards issued under both identities. The
woman was sentenced to serve two concurrent 2-year sentences and ordered to
make restitution to SSA of $86,358 and to the Kings County Human Services of
$6,265.

Man Uses Four Identities to Acquire SSI and SSA Benefits Totaling
$262,279

The Los Angeles Field Division conducted an investigation in California where a
man used four identities and SSNs, including the identity and SSN of his deceased
stepfather, to acquire SSI and SSA benefits totaling $262,279. The investigation
also determined that the man had provided false statements to SSA in an effort to
conceal other sources of income such as workers’ compensation (WC) and private
disability benefits. The man was charged with providing false statements to SSA
and ordered to pay restitution in the amount of $262,279. In conjunction with our
investigation and the $262,279 criminal restitution order, the USMS seized a Rolls
Royce Corniche, 2 Cadillac limousines, 1 Cadillac sedan, as well as jewelry, 4 mink
coats, various antiques, and a grand piano. A lien was also placed against his
Santa Clara, California residence.

Nonprogram Cases

Woman Uses a Fraudulent SSN to Obtain $138,364

The Atlanta Field Division and the FBI conducted an investigation of a woman in
Florida who misused an SSN to obtain a loan under false pretenses for the purpose
of starting a dairy business in Bradenton, Florida. The woman used a fraudulent
name and SSN to conceal derogatory credit under her true number; she also made
false statements to inflate the amount of her net worth, alleging she possessed two
real properties she did not truly own. As a result of these misrepresentations, Farm
Credit of Southwest Florida, an Agricultural Credit Association (ACA), considered
the woman to be credit-worthy and approved a $200,000 loan. The woman
subsequently defaulted on the loan, resulting in a loss to the ACA in the amount
of $138,364. The woman pled guilty to one count of conspiracy to commit bank
fraud and was sentenced and ordered to make restitution in the amount of
$138,365 ($90,277 to Farm Credit of Southwest and $48,088 to Farm Services
Agency).




                                         30
Over $32 Million Ordered in Restitution

The New York Field Division conducted an investigation with the Department of
Education’s OIG and other Federal agencies that involved the Department of
Education’s Pell Grant program and other Federal subsidy programs. The
investigation revealed that several individuals, using false names and SSNs,
conspired to defraud, embezzle, money launder, commit tax fraud, wire and mail
fraud, and make false statements in the theft of over $32 million in Department of
Education Pell Grant monies and other Federal subsidy programs for housing and
small businesses. The indictment in this case charged the defendants with using
dummy corporations, obtaining money for nonexistent people, filing fraudulent
documents to qualify persons, and shifting money through more than 100 bank
accounts. On October 18, 1999, four individuals were sentenced for their roles in
the scheme. The individuals received sentences ranging from 30 to 78 months’
incarceration and ordered to pay restitution in excess of $32 million.

New Jersey Man Sentenced for Fraudulent Translation Scheme

The New York Field Division, the Immigration and Naturalization Service (INS),
and the Department of State conducted an investigation of a man who was allegedly
providing translation services for aliens at SSA and Motor Vehicle offices. The
investigation determined that the man was inserting machine-readable U.S. Visas
into passports provided to him by his alien customers. The customers were then
taken to SSA and Motor Vehicle offices in and outside of New Jersey in order to
obtain SSN cards and drivers’ licenses. The following items were seized when a
search warrant was executed at his place of business: passports, counterfeit U.S.
Visas, 23 blank counterfeit SSN cards, 5 completed counterfeit SSN cards, passport
photos, SSN applications, counterfeit INS stamps, a list of SSA offices in Florida, a
list of Mail Boxes Etc. stores in Florida, and plane tickets to Florida. Following a
2-week trial, the man was found guilty of conspiracy; fraud and misuse of Visas,
permits, and other entry documents; and fraud and related activity in connection
with identification documents. The man was sentenced and fined $3,000.

Three Pled Guilty in “Call-Sell” Telephone Scam

Three Washington State men used the identities of non-suspecting individuals to
establish residency at an apartment and have phone lines installed, claiming they
were operating legitimate businesses. The trio then solicited customers,
immigrants to this country, to make international calls from the “call-sell” site to
friends and relatives in their native country. They would operate the scam until the
telephone bills came due, then vacate the premises leaving unpaid services. The
three men were sentenced after pleading guilty to Federal charges involving a “call-




                                         31
sell” telephone scam. They received sentences of 27, 19, and 13 months in prison
and were ordered to pay restitution of $295,379, $197,842, and $330,364,
respectively.

Representative Payees
In the Significant Activity section of this report, we highlighted our work that
focuses on the Representative Payee Program. In the past, our reporting of
allegations about representative payees has been embedded in programmatic
issues. Because of certain high-profile cases brought to our attention, we are
focusing our investigative efforts on these allegations, not only because of dollars
misdirected but because of the human suffering representative payee abuses cause.

Man Sentenced for Misusing $137,000 Intended for Children

In Honolulu, Hawaii a man was appointed as representative payee for his two
children from January 1990 through July 1997. He had applied for and received
Social Security benefits for his two children and for himself. The investigation
disclosed, however, that he did not have custody of his children since 1990. The
man admitted to investigators that he had misused the benefits intended for his
children and failed to notify SSA of the children’s living arrangements. He pled
guilty to one felony violation of criminal misuse of benefits, was incarcerated, and
ordered to pay $64,000 in restitution and fines. The total fraud loss to SSA is
$137,484.

Representative Payee Misappropriated SSA and VA Funds

In Tucson, Arizona an investigation was conducted on a man who had been
appointed the representative payee for approximately 20 individuals receiving VA
benefits, 10 of whom received both SSA and VA benefits. Auditors from OIG
conducted a review and analysis of financial records obtained from the Federal
grand jury process and determined that he had misappropriated approximately
$66,944 in funds. Officials in the SSA Tucson, Arizona District Office assisted in
identifying the individuals affected. The man pled guilty to fraudulent conversion
of benefits and misappropriation by a fiduciary. On April 5, 2000, he was
incarcerated, ordered to perform 250 hours of community service, and ordered to
pay a $5,000 fine. Prior to sentencing, restitution in the amount of $56,344 was
made to the victims.

Representative Payee Sentenced for Misusing Funds

OI conducted an investigation of a Boston, Massachusetts woman who was the
representative payee for numerous beneficiaries who were entitled to Social
Security and SSI disability payments. The checks issued to her as representative


                                          32
payee were mailed to her at the Salvation Army, her place of employment. Several
beneficiaries complained to SSA that the woman was not using the money she
received on their behalf to pay their bills. The investigation determined that the
woman misused benefits in excess of $50,000 that she received as representative
payee. She pled guilty to theft of Government funds, and was sentenced and
ordered to make restitution of $51,200 to SSA.

Connecticut Representative Payee Sentenced for Misusing Funds

An OI investigation determined that the former director of a mental health
association misused SSA and SSI disability funds entrusted to him as
representative payee for clients of the mental health association. The mental
health association is a non-profit organization providing services to clients. The
investigation identified 60 SSA and SSI recipients for whom the man was
representative payee. The investigation established that the man used
approximately $26,000 in SSA and SSI funds for his own enrichment. Additionally,
the investigation identified State supplemental funds that had been similarly
converted by the man, as well as procurement fraud perpetrated by the man against
the mental health association.

The man pled guilty to a one-count information charging him with illegally
converting payments meant for the use and benefit of others. He was sentenced
and fined $3,600, and ordered to receive substance abuse counseling. Prior to
entering his plea, the man paid in excess of $43,000 to the mental health
association as full restitution for the SSA, SSI, and State supplemental thefts as
well as the procurement fraud.

Man Imprisoned and Ordered to Pay $112,803 Restitution for
Representative Payee Fraud Scheme

From January 1992 to December 1996, a representative payee from Washington
State operated a representative payee service for beneficiaries of SSA, VA, and
State welfare benefits. Investigation showed the man used the benefits for such
items as illegal drugs, classic cars, a recreational vehicle, a yacht, personal
insurance, personal rent, and cash. After pleading guilty to one charge each of
Social Security fraud and theft of Government funds, he was incarcerated and
ordered to pay $112,803 in restitution to the victims.




                                         33
Other Cases of Interest
Couple Ordered to Pay $88,226 in Restitution to SSA

A Phoenix, Arizona couple received Social Security benefits for approximately
4 years after their four children had been removed from their care by the Arizona
Child Protective Services. The court returned a 48-count indictment charging them
both with conspiracy and theft of Government funds. Both were sentenced to
5 years’ probation and ordered to pay $88,226 in restitution to SSA.

New York Man Received Benefits for Fictitious Individuals

The New York Field Division and the U.S. Postal Inspection Service conducted an
investigation of a man in New York who received SSA benefits for fictitious
individuals. The investigation determined that the man received benefits for four
fictitious children, one fictitious adult, and one deceased individual. The man also
assisted his nephew in obtaining SSI disability benefits although he was not
disabled. The man pled guilty to theft of Government funds. He was incarcerated
and ordered to make full restitution to SSA in the amount of $46,331. The man’s
nephew was incarcerated and ordered to make restitution of $3,200 to SSA.

Man Receives Maximum Sentence for Threatening Agents

The Eau Claire, Wisconsin SSA Office contacted OIG regarding a couple who had
divorced in 1993, but continued to live together, posing as a married couple. The
woman had been an SSI recipient since 1993, and the total overpayment in this case
exceeded $30,000. During an interview with two OIG investigators, the man
became very agitated and threatened them with bodily harm. The investigators
had been informed that the subject had purchased a handgun and had advised a
witness that he would kill the Federal agents from Social Security if they ever
showed their faces on his property. The subject also telephoned the Eau Claire
Social Security Office and threatened to shoot a Claims Representative and both
investigators, as well as shooting up the Social Security Office. During a
subsequent telephone conversation with one of the investigators, the subject made
31 threats to kill both investigators and the Claims Representative. The subject
was sentenced to 10 months in prison, the maximum allowed under the Federal
Sentencing Guidelines, and 1 year supervised release for assaulting a Federal
officer while in the performance of his official duties. In addition, he was ordered to
have no contact with SSA and its employees.




                                          34
Woman Ordered to Repay $105,793 for Benefits She Collected for a Child
Not In Her Care

An OI investigation in Riverside, California revealed that a woman made false
statements and provided a false document to SSA when she filed for Mother’s
Insurance Benefits for herself and Child’s Insurance Benefits for her daughter. In
addition, the investigation showed that the woman was not the child’s mother; she
had actually “purchased” the child from Mexico in approximately 1986. In
approximately September 1992, she gave the child awa y and continued to collect
both SSA benefit checks. She collected SSA benefits from September 1989 to
March 1997. The total loss to SSA was $105,793. The woman admitted to
providing false information to SSA, failing to notify SSA of the child’s status, and
misusing SSA benefits. She pled guilty to failure to disclose information affecting
entitlement, and was sentenced and ordered to pay full restitution to SSA in the
amount of $105,793.




                                         35
36

                                      Office of Audit

                                                Audit
      OA conducts comprehensive financial and performance audits of SSA’s programs
      and operations and makes recommendations to ensure that program objectives are
      achieved effectively and efficiently. OA also conducts management and program
      evaluations that identify and recommend ways of preventing program fraud and
      maximizing efficiency.

      OA is organized into issue area teams that specialize in one or more of SSA’s
      programs or operations as displayed in the following organizational chart.




                                                   ASSISTANT INSPECTOR
                                                    GENERAL FOR AUDIT




                                                     DEPUTY ASSISTANT
                                               INSPECTOR GENERAL FOR AUDIT




                                                                           Policy, Planning &
                                                                           Technical Services
                                                                                Division



    DIRECTOR             DIRECTOR               DIRECTOR                        DIRECTOR                     DIRECTOR                  DIRECTOR
   Systems Audit         Operational         Disability Program              Program Benefits        General Management Audit   Financial Management &
     Division           Audit Division         Audit Division                  Audit Division                 Division          Performance Monitoring
                                                                                                                                     Audit Division




Mainframe Controls &       Earnings               Disability              Retirement and Survivors     General Management        Financial Accounting
Advanced Techniques                               (SSI & DI)                     Insurance                                        & Internal Controls
                       PHILADELPHIA                                                                      HEADQUARTERS
 HEADQUARTERS                                     BOSTON                      SAN FRANCISCO                                        HEADQUARTERS



Application Controls     Enumeration                 DDS                            SSI                  Quick Response/         DDS & Contract Audits
                                              (Service Delivery)               (Nondisability)            Fraud Liaison
  HEADQUARTERS          BIRMINGHAM                                                                                                 HEADQUARTERS
                                                KANSAS CITY                      CHICAGO                 HEADQUARTERS


Network Security &       Operations &
Telecommunications       PSC/TSC/FO         Office of Hearings and                                                              Performance Monitoring
     Controls          (Service Delivery)          Appeals
                                                                                                                                      NEW YORK
  HEADQUARTERS            ATLANTA              FALLS CHURCH



                                            Hearings Operations

                                                  DALLAS




                                                                     37
During this reporting period, we issued 27 reports with recommendations that
$45,516,955 in Federal funds could be put to better use and identified $108,410 in
questioned costs. The following sections highlight some of the most significant
reviews.

Enumeration
Enumeration is the process by which

SSA assigns original SSNs, issues

replacement cards to people with

existing SSNs, and verifies SSNs for

employers and other Federal agencies.


We want to reiterate that the

importance placed on SSNs in today’s

society provides a tempting motive for individuals to fraudulently acquire an SSN

and use it for illegal purposes. These crimes affect the victims’ attempts to receive

legitimate benefits and also harm their credit ratings. In addition, the financial

industry passes on the cost associated with identity theft to all of its consumers.


Most importantly for our concerns is that false identities are used to defraud SSA

programs. Our work has revealed that unscrupulous individuals can assume the

identity of another person who is either alive or dead and work under the stolen

SSN, while receiving disability benefits under their own SSN. Individuals also have

assumed the identity of another person and placed their assets under this identity

in order to qualify for SSI payments under their own SSNs.


Recognizing SSA’s vulnerability to SSN misuse, we issued the following report.


The Social Security Administration is Pursuing Matching Agreements with
New York and Other States Using Biometric Technologies

                  Our objective was to assess whether the results of biometric
                    technologies used to combat fraud and identify ineligible
                     recipients for social service programs could benefit SSA. As of
                      December 1998, 11 States use or had plans to adopt biometric
                      technologies in their social service programs. In general,
                       States that have implemented biometric programs have
                       realized significant benefits (California – over $86 million;
                      Connecticut – $15 million; New York – $396 million).

                      We reviewed 500 sample cases from 12,615 Aid To Families
                      With Dependent Children (AFDC) cases closed by New York
                    for failure to cooperate with the State’s finger-imaging


                                          38
requirement over the period October 1995 to July 1997. Of the 500 cases reviewed,

we identified 64 individuals (13 percent) to whom SSA had paid title II (disability)

and/or title XVI benefits. A conclusion on the propriety of SSA payments made to

these 64 individuals could not be drawn because SSA did not have a matching

agreement in place with New York. OIG was also prohibited from pursuing

matching agreements in individual cases.


We estimate that, as of January 1998, about $45 million in SSA benefits had been

paid to approximately 1,615 individuals within the population of New York State’s

12,615 terminated AFDC cases. An additional $16.3 million in SSA benefits will be

paid to individuals within this population between February 1998 and

February 2001. We believe SSA could use the results of New York State’s

biometrics program to identify individuals who are inappropriately receiving

benefits, thereby, reducing and/or recovering any improper benefit payments.


We recommended that SSA: (1) pursue a matching agreement with New York, so

that the Agency can use the results of the State’s biometric technologies to reduce

and/or recover any improper benefit payments; and (2) initiate pilot reviews to

assess the cost-efficiency of matching data with other States that have employed

biometrics in their social service programs.


In response to our recommendations, SSA agreed to conduct a pilot matching

agreement with New York and consider expanding the program to other States if

the New York pilot proves beneficial.


Earnings
An individual’s earnings are the basis to calculate Social Security benefits. SSA
establishes and maintains a record of an individual’s earnings for use in
determining an individual’s entitlement to benefits and for calculating benefit
payment amounts.

For those reported earnings that fail to match SSA’s name/SSN validation criteria,
those items are posted to the Suspense File. From 1937 through April 1999, the
Earnings Suspense File (ESF) has grown to about 212 million items representing
about $262 billion in wages. Since 1990, it has grown at an average of 5 million
wage items and $17 billion, annually. In Tax Year 1997, suspended wages exceeded
$27.1 billion and wage items grew to almost 6.4 million items. Employer and
employee reporting errors are the main causes of the file’s growth and size.

The Suspense File is an indication of reporting problems that must be addressed. If
not addressed, these reporting problems could result in the beneficiaries receiving
less than what they are entitled to. A summary of a related report follows.



                                          39
The Social Security Administration’s Earnings Suspense File Tactical Plan
and Efforts to Reduce the File’s Growth and Size

Title II of the Social Security Act requires SSA to maintain records of wage amounts
that employers pay to individuals. To accomplish this, SSA uses the SSN to record
individuals’ wages. When wage items fail to match an SSA name and SSN records,
they are put in the ESF.

Since 1990, the ESF has increased an average of 5 million wage items and
$17 billion, annually. Six major factors hinder the reduction of the ESF’s size and
contribute to its growth.

�	   Higher Agency priorities for automated systems development resources within
     SSA.

�	   The Agency has neither linked wage information year-by-year to identify chronic
     problem employers, nor aggressively targeted for corrective action, the
     employers who have been responsible for a disproportionate share of the ESF for
     several years.

�	   Agency officials reported to us that some employers contacted in a recent effort
     to correct and prevent wage reporting errors were unaware of wage reporting
     problems.

�	   The ESF Tactical Plan does not adequately address industries that hire
     transient employees who may not have work authorization from the INS.

�	   Initiatives with higher benefits require coordination with, and/or assistance
     from, other Federal agencies. For example, SSA estimates that having the
     Internal Revenue Service (IRS) impose civil penalties allowed under existing law
     against employers who file inaccurate wage reports will reduce ESF growth by
     1.5 million wage items, annually. However, at meetings with SSA officials, the
     IRS was reluctant to take action.

�	   Existing laws and regulations are not clear in specifying an employers’ right to
     require prospective employees to present SSN cards prior to hiring. In addition,
     overlapping and/or conflicting employee hiring and reporting requirements
     among SSA, IRS, and INS confuse employers.

We recommended and SSA agreed to:

�	   Establish a high priority on key ESF reduction initiatives in the current ESF
     Tactical Plan.



                                           40
�	   Assign a higher priority to work with the IRS to prepare a legislative proposal to
     clarify employers’ right to see the SSN card before hiring.

�    Pursue with the IRS penalties on chronic problem employers.

�	   Seek sanctioning (penalty) authority if the IRS fails to impose penalties against
     chronic problem employers. However, SSA believes that the IRS can more
     effectively apply such penalties.

Audit of Quality Review Process at the Office of Central Operations

Our objective was to determine whether the Office of Central Operations’ (OCO)
Division of Earnings Record Operations (DERO) and Division of Employer Services
(DES) had a quality review process (QRP) in place, and, if so, whether the process
measured its performance.

DERO determines the accuracy of earnings records and handles corrections of
individuals’ earnings records. DES identifies and resolves discrepancies and
missing employers’ earnings reports.

The DERO workload consists of claims earnings record requests used to determine
eligibility; pre-claims correspondence from the public pertaining to earnings data
prior to benefits; and earnings adjustments. The DES workload consists of
resubmitting electronic reports and correcting errors.

In 1984, an SSA workgroup developed the preliminary policies and procedures for
the OCO’s QRP, as required by the Federal Managers’ Financial Integrity Act of
1982 and the Office of Management and Budget. The workgroup established
accuracy goals for each of its divisions to measure its performance. DERO’s
accuracy goal was 94 to 96.9 percent, and DES’ accuracy goal was 94 to 96 percent
for substantive deficiencies. These accuracy goals are still in effect.

We reviewed OCO’s operating procedures for conducting quality reviews and the
individual QRPs for each division. However, OCO could not provide data on the
DERO and DES quality reviews performed from October 1997 to March 1998
because OCO stopped accumulating data on its quality review plans in
1995. Therefore, we could not determine the extent to which errors occurred or the
cumulative affect these errors had on operations. Additionally, we could not
determine whether there was a uniform system of feedback to employees and
managers to improve the quality of work products and enable management to
acquire data to assess individual performance. OIG did obtain DERO cases for
December 1997 and DES cases for October and November 1997. OIG’s review of the




                                           41
partial statistics indicated that quality reviews were being conducted, errors were
identified, and corrective action was taken. We believe that despite OCO’s efforts,
the QRP did not adequately measure its own performance.

We recommended that OCO develop management reports for DERO and DES that
accumulate quality review data to measure actual performance against performance
goals. SSA agreed with this recommendation.

Systems – Data Integrity
One of the challenges facing SSA

is giving the public the service it

expects during a period of

increasing demands without a

corresponding increase in staff.

Demographic changes in the

Nation’s population over the

next several years will cause

substantial increases in SSA’s

operational workloads. To meet

this challenge, SSA must

increase its reliance on

automated systems. The

sensitivity of the data maintained and the magnitude of funds expended make

controls in automated systems critical to the integrity of SSA programs and client

satisfaction.


To ensure the integrity of SSA’s controls over application software development and

maintenance at SSA, we conducted the following review.


Reliability of Diagnosis Codes Contained in the Social Security
Administration’s Data Bases

Our objective was to determine the impact on SSA’s operations when diagnosis
codes on the Master Beneficiary Record (MBR) or Supplemental Security Record
(SSR) are missing, invalid, or for unestablished diagnoses. The diagnosis code on
the MBR and SSR should refer to the basic medical condition that rendered the
individual disabled.

SSA’s procedures do not ensure valid and specific codes are recorded to the MBR or
SSR. We estimate that 1.31 million MBR or SSR records did not contain diagnosis
codes representing the medical condition related to the individuals’ disabilities.




                                         42
These incorrect codes affect SSA’s ability to properly select beneficiaries or
recipients for Continuing Disability Reviews (CDR) and preclude SSA from
identifying cases mandated for redeterminations.

Having diagnosis codes that do not represent specific disabilities on SSA’s records
affects SSA’s ability to identify specific disabilities for review. For instance, due to
passage of the Personal Responsibility and Work Opportunity Reconciliation Act of
1996 (Public Law 104-193), which is commonly known as the Welfare Reform Act,
the prior medical determinations of children had to be reviewed if those children
had certain disabilities specified in the legislation. Our findings revealed that the
required reviews were not performed in cases that should have been selected for
redeterminations under the Welfare Reform Act. We estimate that at least
3,539 recipients with incorrect codes should have had medical redeterminations
performed under the Welfare Reform Act. Since SSA did not perform these
redeterminations, we estimate that at least $8.97 million in SSI payments were
paid incorrectly.

We made recommendations to SSA to correct the diagnosis codes in SSA’s data
bases and to ensure that, in the future, all beneficiaries’ disabilities are represented
by valid, specific codes. SSA agreed to take action on most of our recommendations.
However, we continue to believe that further corrective action is necessary to ensure
that diagnosis codes are carried forward to new records because SSA’s edit does not
apply to all claims and does not preclude manual override.

Program Management
SSA is bound by complicated guidelines in administering OASDI and SSI programs.
This is particularly true for SSI because, as a means-tested program, it is more
difficult to administer than OASDI. OASDI eligibility is based on general objectives
and relatively stable factors, such as birth dates, earnings history, and marital
status. SSI eligibility, on the other hand, can change monthly because of changes in
income, resources, living arrangements, and place of residency.

The General Accounting Office declared SSI a high-risk program in February 1997
and this designation continues to exist. To assist in ensuring the integrity of the
SSI program, Congress enacted the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (commonly known as the Welfare Reform Act), which
requires that SSA conduct CDRs in certain instances. The Welfare Reform Act also
authorized the fundings for CDRs for FYs 1997 and 1998. SSA reports annually to
Congress on its progress in conducting CDRs.

OASDI programs, commonly referred to as Social Security, provide a comprehensive
package of protection against the loss of earnings because of retirement, disability,
and death. Monthly cash benefits are financed through payroll taxes paid by


                                           43
workers and their employers and by self-employed individuals. Social Security also
provides protection for surviving spouses and children. Several of our reviews about
these programs are described in this section.

Review of Internal Controls Over the Processing of One-Check-Only
Payments (Confidential Report)

OIG’s objectives were to assess the adequacy of selected controls over the processing
of One-Check-Only payments and test controls at the Great Lakes Program Service
Center (PSC). The Great Lakes PSC was the site of an earlier review focusing on
this payment method. The PSCs are six large and complex multi-mission stations,
which were established as extensions of the National Headquarters, where two
other stations are located. The eight such centers are collectively referred to as
“processing centers” (PC). OIG’s results determined that SSA’s internal controls for
processing One-Check-Only payments do not meet the standards for management
controls as established by the Federal Managers’ Financial Integrity Act of 1982
and promulgated by Office of Management and Budget Circular A-123. Interviews
conducted with SSA staff and questionnaires sent to all PCs, located throughout the
country, disclosed several weaknesses in internal controls over the preparation and
approval of the One-Check-Only payment authorization forms.

OIG believes internal control weaknesses described in its preliminary report are
inherent in the One-Check-Only payment process at all PSCs. We recommended
that SSA: (1) require a second review and signature of One-Check-Only payment
authorization forms at all PCs; (2) require module managers to implement a
distribution or pre-numbering system to control the One-Check-Only payment
authorization forms and ensure improved accountability; (3) provide all PCs with
the external security package access; (4) ensure that One-Check-Only payments are
properly recorded; (5) require all Security and Integrity Branches to develop a
single uniform sampling methodology and review all One-Check-Only payments;
and (6) develop guidelines to maintain One-Check-Only payment authorization
forms in the case folders.

In its response, SSA’s planned action addresses most of our recommendations. SSA
states that their planned actions will minimize the opportunity to commit fraud.
Because of the sensitive nature of this audit, we cannot describe in detail
the findings of this report. This report is not available for distribution.

Workers’ Compensation Unreported by Social Security Beneficiaries

Our objective focused on whether Social Security Disability Insurance (DI)
beneficiaries were reporting State WC benefits or changes in those benefits to SSA.
Section 224 (a) of the Social Security Act requires that under certain conditions, the
title II DI benefits must be offset by WC benefits paid. However, once the offset is


                                          44
initially calculated, SSA relies solely on the beneficiary to report changes in WC
status or benefits that can effect monthly payments. If the beneficiary fails to
report, the established DI benefit remains the same and the initial WC offset
continues.

Overall, we determined that large numbers of DI beneficiaries were not voluntarily
reporting changes in WC status and benefits, as agreed. Out of a population of
183,881 WC offset cases, we estimate that 57,003 cases may have unreported WC
activity causing payment errors totaling about $325.8 million. In addition, matches
with two States’ WC data files identified other cases where DI beneficiaries were
concurrently receiving State WC and DI benefits. However, SSA records were
missing a WC indicator meaning that the required offset was not considered in the
initial DI benefit calculation. SSA relied on each DI beneficiary to voluntarily
report changes in WC status and benefits. SSA had no alternate means of
identifying and correcting initial WC offsetting errors or the failure of a beneficiary
to report a subsequent WC change. This practice adversely impacted the overall
accuracy of DI payments.

Based on the results of this audit, we recommended that SSA establish a proactive
strategy to identify the existence of WC and subsequent changes in WC benefits.
First, SSA should conduct on-line matching in States where practical. However,
SSA had only obtained on-line access to WC data in five States making up about six
percent of the total population of WC offset cases. There were problems in
obtaining WC data in other States because either State law prohibited the release of
data or the data was incompatible (i.e., incomplete or not computerized). Therefore,
in States where on-line matching is not an option, we recommended that SSA
obtain WC data extracts for off-line matching with DI records, or institute
alternative measures such as updating WC information through mass mailings or
through the continuing disability review process.

SSA acknowledged that payment accuracy problems exist in the DI workload
involving WC and agreed to take action on the cases sampled to resolve $116,600 in
overpayments and $60,554 in underpayments that resulted when beneficiaries
failed to report subsequent changes in State WC benefits. Also, collect the
overpayments of $29,797 that resulted from the Kentucky and Tennessee cases
because SSA either did not adjust for the WC benefits reported or the beneficiary
failed to report State WC benefits. SSA also agreed to pursue WC data matches
and to establish a WC work group to further analyze the reported problems and to
recommend operational improvements.




                                          45
The Social Security Administration Incorrectly Paid Attorney Fees on
Disability Income Cases when Workers’ Compensation Payments were
Involved

SSA administers the OASDI Program under title II of the Social Security Act.
Section 223(a) of the Act requires that SSA provide monthly DI benefits to
individuals who are eligible and meet specific disability requirements.
Section 206 of the Act requires that SSA withhold and pay fees to attorneys who
assist a claimant during any or every step in the DI proceedings, that is, initial
determination, reconsideration, hearing, and/or Appeals Council Review. Under a
fee agreement, the attorney fee is usually limited to 25 percent of the past due
benefits or $4,000, whichever is less. In special cases, a fee greater than $4,000 can
be authorized if the attorney appeals the fee award, files a fee petition, and
persuades SSA to increase the fee. A fee petition can also be filed after the
attorney’s services in the case have ended. Based on the petition, SSA approves a
“reasonable” fee for the specific services provided. In determining a reasonable fee,
SSA considers criteria the regulations prescribe. (The fee petition process has an
administrative review process whereby the fee petition approved can be increased
or decreased if the attorney or beneficiary appeals the approved fee.) Nevertheless,
in all instances, SSA may not withhold and pay more than 25 percent of past due
benefits directly to the claimant’s attorney. The attorney must collect any amounts
awarded in excess of 25 percent directly from the claimant or the claimant’s
auxiliaries.

Of the 50 WC cases OIG reviewed, attorneys were paid fees in 33 cases. Of these,
the attorney fees were paid incorrectly in 15 cases, totaling $18,410. Some
payments were incorrect because SSA did not verify the WC benefit amounts
provided at application. Others occurred because of internal processing mistakes by
SSA employees (for example, calculation errors, a lack of documentation to support
fee payments, and the use of inaccurate attorney fee rates).

These payment errors went undetected because internal controls did not address
the attorney fee process. When projected to the total population of 183,881 DI cases
with WC offset, OIG estimates that 27,582 WC cases may have incorrect attorney
fees with a potential total dollar error of $33.8 million.

To correct the errors identified in this report and improve the policies and
procedures, SSA agreed to do the following:

�	   Review the cases in OIG’s sample to determine the proper attorney fee payment
     and take the required actions on the $18,410 in errors of which $17,238 were
     overpayments and $1,172 were underpayments.




                                          46
�	   Provide instructions to existing procedures that will eliminate the types of errors
     identified.

�	   Develop internal controls to prevent and detect the processing errors identified
     in this report by requiring that: State WC offset cases be included in the front-
     end review process, and attorney fee reviews be included in the Office of Quality
     Assurance and Performance Assessment annual payment accuracy review.

SSA postponed verifying the accuracy of State WC payments before calculating past
due benefits and paying the associated attorney fee. Because of the serious
questions raised in OIG’s report concerning the payment of attorney fees, SSA will
perform a separate study of the procedures that provide for paying past due benefits
without current and accurate WC verification. SSA expects to have enough
information from the study to provide OIG with its response within 18 months.
SSA will then determine whether it will implement OIG recommendations or
propose an alternative measure to improve the accuracy of attorney payments.

Beneficiaries Expressing Interest in Vocational Rehabilitation Services
Through a Continuing Disability Review Mailer

OIG’s objective was to assess SSA’s use of the CDR mailer program as a tool for
identifying candidates for vocational rehabilitation (VR) services. Specifically, OIG
assessed whether individuals who expressed an interest in VR on a CDR mailer
would have been accepted to enter rehabilitation programs by State vocational
rehabilitation agencies (VRA) if SSA had referred them.

Periodically, SSA is required to re-examine the medical condition of disabled
beneficiaries. These re-examinations, called CDRs, determine whether individuals
are still disabled and eligible for benefits. Beginning in 1993, CDR mailers replaced
full medical CDRs for beneficiaries with a relatively low likelihood of benefit
termination. Included in this mailer is a question for the beneficiary regarding
whether the individual would be interested in rehabilitation services. Until
January 1996, SSA extracted “Yes” responses to this question and forwarded this
information to State VRAs.

According to SSA, referring individuals requesting VR on a CDR mailer was not
efficient. We believe that with improvements to the process, these referrals can be
more cost-effective. They can also result in significant cost savings based on the
States included in our review accepting many of the beneficiaries referred from
CDR mailers.

Before SSA suspended its VRA referral procedures, service delivery was impeded by
untimely referrals. This time lag diminished the quality of referrals as
beneficiaries’ circumstances often change over time. All of the VRAs included in our


                                           47
review reported difficulties locating or contacting beneficiaries who, oftentimes, had
changed their address or telephone number since submitting the CDR mailer to
SSA.

SSA cited concerns on the part of State VRAs regarding the cost-effectiveness of
evaluating CDR mailer-referred VR candidates as a reason for suspending its
referral program. OIG’s analysis of beneficiaries accepted for services showed
specific characteristics that could be used to identify beneficiaries with the highest
probability of acceptance, thereby reducing the State VRAs’ cost to evaluate CDR
mailer-referred VR candidates.

Recently, SSA provided the following additional comments. First, SSA plans to
delete the questions regarding interest in receiving employment services from the
CDR mailer questionnaire since the responses have resulted in few useful referrals
to VRAs. With the passage of the Ticket to Work and Work Incentives
Improvement Act (Public Law 106-170), SSA’s statutory authority to make referrals
is repealed in graduated phases. By 2003, SSA’s statutory authority to make these
referrals will be repealed in all States. Under Public Law 106-170, beneficiaries
will be issued tickets that they can use to receive services from providers of their
choice and at a time they deem most appropriate. According to SSA, this new
approach will empower beneficiaries who are ready and willing to participate in a
program of VR services to initiate the process without waiting on others to make
these decisions for them.

SSA Performance Measures
We developed a 3-year Work Plan (see Appendix A) to review SSA’s implementation
of the Government Performance and Results Act (GPRA). To implement this plan,
every issue team in OA will conduct GPRA-related reviews. One issue team
dedicated to GPRA reviews will coordinate the work. All of the teams will
determine the reliability of SSA’s performance data and ensure that SSA’s
implementation of GPRA is in accordance with its requirements.

Performance Measure Review: Summary of PricewaterhouseCoopers’, LLP
Review of the Social Security Administration’s Performance Data

Our objective was to determine the reliability of the data used to measure
performance in the six processes. This report is a consolidation of six individual
reports. The report discusses the findings used by SSA to measure multiple
processes. The processes include: (1) Old-Age and Survivors Insurance (OASI)
claims processing; (2) representative payee actions; (3) SSN card requests;
(4) annual earnings items posting; (5) Personal Earnings and Benefit Estimate
Statement processing; and (6) SSI aged claims processing.



                                          48
To evaluate the nine SSA performance indicators established, OIG contracted
PricewaterhouseCoopers, LLP (PwC) to: (1) gain an understanding and document
the current system sources from which data is collected to report on the specified
performance measures; (2) identify and test critical controls (both electronic data
processing and manual) of current systems from which the specified performance
data is generated; (3) test the accuracy of the underlying data for each of the
specified performance measures; (4) recalculate each specific measure to ascertain
its mathematical accuracy; (5) evaluate the impact of any relevant findings from
prior and current audits with respect to SSA’s ability to meet performance measure
objectives; and (6) identify findings relative to the above procedures and make
suggestions for improvement.

PwC had multiple findings and 40 recommendations on how to improve the
measurement of performance for the 6 processes. In summary, PwC found that
SSA:

�    lacked sufficient performance measure process documentation;

�    had a number of data integrity deficiencies;

�    had three measures that did not reflect a clear measure of performance;

�	   did not clearly identify the sources of the performance data for all its
     performance measures; and

�    miscalculated three performance measures.

PwC had multiple recommendations to improve these deficiencies.

SSA had two overall concerns with the report. SSA stated that the report unfairly
held it accountable for GPRA requirements in FY 1998. The GPRA requirements
were not in effect until FY 1999. PwC clarified in the report that it examined
processes, systems, and controls in FY 1999, but did have to use FY 1998 data for
testing purposes in some circumstances where FY 1999 data was not available.
SSA also noted that many of the recommendations included in the report were
duplicative of recommendations PwC issued in its audit of SSA’s financial
statements. The Agency decided not to respond to these recommendations since it
had already done so in response to the financial statement audit.

SSA agreed with many of PwC’s recommendations, but disagreed with a few. SSA
did not think that it was appropriate to divide the representative payee actions
performance measure into two separate indicators. SSA felt that the indicator
appropriately measured the representative workload even though it included
different types of representative payee actions. SSA also did not agree with the


                                            49
recommendation that certain performance measures should be redefined so that the
Agency was not exposed to high degrees of outside factors. PwC concluded that the
measurement of time it takes to process OASI claims and SSI claims could be
affected by how quickly a claimant provided SSA with all necessary information.
The Agency stated that it was comfortable with having some measures that include
elements that are outside of its control.

Review of the Social Security Administration’s Fiscal Year 2000 Annual
Performance Plan

OIG’s objective was to determine whether SSA’s FY 2000 Annual Performance Plan
(APP) adhered to GPRA and the Office of Management and Budget’s Circular A-11.
OIG conducted this review as part of the OIG’s ongoing effort to respond to
congressional requests that OIG examine SSA’s development of its performance
measures and goals.

OIG reports that SSA’s FY 2000 APP demonstrates a commitment and
improvement in SSA’s efforts to comply with GPRA and meet congressional
expectations for information about SSA’s performance goals. OIG also reports that
the FY 2000 APP represents a significant improvement over the FY 1999 APP.
However, OIG believes SSA can make future performance plans even more useful to
decision makers. We recommended that SSA: (1) establish performance measures
for all major initiatives and management problems; (2) provide measures that
better reflect planned performance; (3) more specifically identify resources, human
capital, and technology needed to achieve planned performance; and (4) disclose
known data limitations and weaknesses and planned corrective actions.

In response to the draft report, SSA agreed in principle with all the
recommendations and detailed changes planned for the FY 2001 APP.

Financial Audits
The Chief Financial Officers Act of 1990

(Public Law 101-576), as amended, requires that the

Inspector General or an independent external

auditor, as determined by the Inspector General,

audit SSA’s financial statements in accordance with

the General Accounting Office’s Government

Auditing Standards.


We also conduct financial-related audits of SSA

programs, segments, line items, and accounts,

including related internal control. In addition, we

conduct administrative audits of the State agencies



                                         50
and contractors receiving Federal funds for making initial and continuing disability
determinations for eligibility under the DI and SSI programs and other contracts as
referred by SSA’s Office of Acquisitions and Grants.

Audit of the Social Security Administration’s Fiscal Year 1999 Financial
Statements

PwC performed the audit of SSA’s FY 1999 Financial Statements. PwC’s audit
report was transmitted to the Commissioner on November 19, 1999. PwC issued an
unqualified opinion on the FY 1999 financial statements. In PwC’s opinion,

      . . . the consolidated financial statements audited by us . . . present
      fairly, in all material respects, the financial position of SSA at
      September 30, 1999, and 1998, and its consolidated net cost, changes
      in net position, budgetary resources and reconciliation of net cost to
      budgetary resources for the fiscal years then ended in conformity with
      generally accepted accounting principles.

PwC’s audit report did identify two reportable conditions in SSA’s internal control.
The control weaknesses identified were: (1) SSA needs to further strengthen
controls to protect its information and (2) SSA needs to complete and fully test its
plan for maintaining continuity of operations.

PwC also reported two instances of noncompliance with laws and regulations. They
were: (1) Section 221(i) of the Social Security Act, which requires periodic CDRs for
title II beneficiaries and (2) the Federal Financial Management Improvement Act of
1996 (FFMIA) for the cumulative effect of the two internal control weaknesses
listed above.

SSA agreed with all of the findings and recommendations, except for the one
pertaining to FFMIA. SSA does not feel that the two internal control weaknesses
are instances of noncompliance with FFMIA.

Single Audits
The Single Audit Act of 1984 established requirements for audits of States, local
governments, and Native American tribal governments that administer Federal
financial assistance programs.

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996.
The Amendments extended the statutory audit requirement to nonprofit
organizations and revised various provisions of the 1984 Single Audit Act including
raising the dollar threshold for requiring a single audit to $300,000 in Federal
awards expended.


                                         51
We review the quality of these audits, assess the adequacy of the entity’s
management of Federal funds, and report single audit findings to SSA for audit
resolution. The following single audits were reviewed.

Single Audit of the Arkansas Disability Determination Services for the
Fiscal Year Ended September 30, 1997

OIG’s objective was to review the findings reported under the single audit for the

State of Arkansas for the Fiscal Year ended September 30, 1997, and report these

findings to SSA’s Management Analysis and Audit Program Support Staff for audit

resolution.


OIG’s review of the single audit reported that disbursements for computer software

services were in excess of the approved procurement amount by $5,329. SSA

subsequently disallowed the excess budget expenditures.


We recommended that SSA ensure appropriate corrective action is taken on

Miller, England and Company’s recommendation that the Arkansas DDS take steps

to ensure that its purchasing procedures and the related responsibilities of the

employees are clearly communicated to all employees.


Single Audit of the State of New York for the Fiscal Year Ended
March 31, 1997

OIG’s objective was to review the findings reported under the single audit for the
State of New York for the Fiscal Year ended March 31, 1997, and report these
findings to SSA’s Management Analysis and Audit Program Support Staff for audit
resolution.

OIG’s review of the single audit reported that the New York DDS did not:
(1) correctly code an employee timesheet into the Payroll Allocation Cost System;
(2) perform required reviews of claims to ensure that they were allowable;
(3) conduct voucher reviews to monitor the costs claimed by training contractors;
and (4) file quarterly SSA-4514 time reports timely.

We recommended that SSA: (1) ensure appropriate corrective action is taken on
KPMG Peat Marwicks’ recommendation that the Department of Social Services
ensure that proper review of timesheets are performed by supervisors; (2) ensure
appropriate corrective action is taken on KPMG Peat Marwicks’ recommendation
that the State strengthen procedures over the review of the local districts’ claims for
allowability by expanding the number of presettlement reviews; (3) ensure
appropriate corrective action is taken on KPMG Peat Marwicks’ recommendation
that the Department of Social Services develop a system whereby all training
contractors’ records would be subject to review on both a rotating and random basis


                                          52
and reports would be issued on a timely basis; and (4) instruct the New York DDS
to establish procedures for ensuring the Time Report of Personnel Services
(SSA-4514) is submitted to SSA within the time frame required by SSA
instructions. KPMG Peat Marwick did not have a recommendation for this finding.

Quick Response/Fraud Liaison Team
In addition to audits and evaluations, OA provides the lead in responding to special
inquiries in conjunction with OI. The Quick Response/Fraud Liaison Team (QRT) is
charged with performing short-duration, time-sensitive projects that address
requests from the White House, Congress, and other Federal agencies. The QRT
also responds to issues brought to the attention of OIG by senior SSA officials and
beneficiaries. It plays a major role in coordinating activities that leverage OIG’s
audit and investigative resources. Some of the issues this team resolved during the
reporting period ranged from safeguards over SSN cards to Trust Fund
Investments.




                                        53
54

              Resolving Office of the

                                  the
       Inspector General Recommendations

                         Recommendations
                      Reports With Questioned Costs for the Reporting Period
                             October 1, 1999, Through March 31, 2000

   The following charts summarize SSA’s responses to OIG’s recommendations for the recovery or
   redirection of questioned and unsupported costs. Questioned costs are those costs that are
   challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that are
   questioned because they are not justified by adequate documentation. This information is provided
   in accordance with the Supplemental Appropriations and Rescission Act of 1980 (Public Law 96-304)
   and the Inspector General Act of 1978, as amended.

                                                                                        Value                    Value
                                                                       Number         Questioned              Unsupported
A. For which no management decision had been
   made by commencement of the reporting period.                         61              $79,337,819                     $85,831

B. Which were issued during the reporting period.                        32                 $108,410                          $0
                 Subtotal (A+B)                                          9               $79,446,229                     $85,831
Less:
C. For which a management decision was made
   during the reporting period:                                          43                  $826,628                    $41,933
       i. dollar value of disallowed costs.                              4                   $826,628                         $0
          ii. dollar value of costs not disallowed.                      1                           $0                  $41,933
   D. For which no management decision had been
      made by the end of the reporting period.                           54              $78,619,601                     $43,898

   1 Review of Administrative Costs Claimed for Fiscal Year 1994 by the New Jersey Department of Labor (A-02-95-00002),

   June 20, 1997; Audit of Administrative Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of
   Disability Determination (A-13-98-51007), September 24, 1999; Audit of Costs Claimed by the Center for Addictive Behaviors,
   Inc. on the Social Security Administration’s Contract Number 600-95-22671 (A-13-98-51041), September 24, 1999; Audit of
   Administrative Costs Claimed by the Delaware Disability Determination Services (A-13-98-52015), September 24, 1999;
   Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999; School Attendance by Child
   Beneficiaries Over Age 18 (A-09-97-61007), September 27, 1999.

   2   See Reports with Questioned Costs on page 59 of this report.

   3Audit of Administrative Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of Disability
   Determination (A-13-98-51007), September 24, 1999; Audit of Administrative Costs Claimed by the Delaware Disability
   Determination Services (A-13-98-52015), September 24, 1999 – This report contained dollars that were disallowed and
   not disallowed; Workers’ Compensation Unreported by Social Security Beneficiaries (A-04-98-64002), December 6, 1999; The
   Social Security Administration Incorrectly Paid Attorney Fees on Disability Income Cases When Workers’ Compensation
   Payments were Involved (A-04-98-62001), March 8, 2000.

   4 Review of Administrative Costs Claimed for Fiscal Year 1994 by the New Jersey Department of Labor (A-02-95-00002),

   June 20, 1997; Audit of Costs Claimed by the Center for Addictive Behaviors, Inc. on the Social Security Administration’s
   Contract Number 600-95-22671 (A-13-98-51041), September 24, 1999; Waivers Granted for Title II Overpayments Exceeding
   $500 (A-09-97-61005), September 27, 1999; School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007),
   September 27, 1999; Single Audit of the Arkansas Disability Determination Services for the Fiscal Year Ended
   September 30, 1997 (A-77-99-00014), November 11, 1999.
                                                                  55
           Reports With Recommendations That Funds Be Put to Better Use for the
                 Reporting Period October 1, 1999, Through March 31, 2000

     The following chart summarizes SSA’s responses to our recommendations that funds be put to better
     use through cost avoidances, budget savings, etc.

                                                                                                          Number           Dollar Value
A. For which no management decision had been made by commencement of the
   reporting period.                                                                                          71             $269,716,442
B. Which were issued during the reporting period.                                                             42            $170,516,9553
                               Subtotal (A+B)                                                                 11            $440,233,397
Less:
C. For which a management decision was made during the reporting period:
   i. dollar value of recommendations that were agreed to by management.
      (a) Based on proposed management action.                                                                64            $178,119,695
      (b) Based on proposed legislative action.                                                               15            $125,000,000
                                Subtotal (a+b)                                                                7             $303,119,695
   ii. dollar value of recommendations that were not agreed to by management.                                 46             $99,695,976
                                Subtotal (i+ii)                                                               11            $402,815,671
D. For which no management decision had been made by the end of the
   reporting period.                                                                                           17             $37,417,726




     1 Management Advisory Report: Welfare Reform Childhood Redetermination Accuracy (A-01-98-62012), March 3, 1999;
     Administrative Costs Claimed at the Missouri Disability Determination Services (A-07-97-51006), May 17, 1999; Use of Plans
     for Achieving Self-Support to Obtain Supplemental Security Income Benefits (A-01-98-61006), September 20, 1999; Audit of
     Administrative Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of Disability Determination
     (A-13-98-51007), September 24, 1999; Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005),
     September 27, 1999; School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007), September 27, 1999; Review of
     Controls Over Nonwork Social Security Numbers (A-08-97-41002), September 29, 1999.

     2   See Reports with Funds Put to Better Use on page 59 of this report.

     3This dollar amount has been modified because of developments that occurred after the issuance of our reports entitled,
     Effectiveness of Obtaining Records to Identify Prisoners (A-01-94-02004), May 10, 1996; and Effectiveness of the Social Security
     Administration’s Procedures to Process Prisoner Information, Suspend Payments and Collect Overpayments (A-01-96-61083),
     June 24, 1997. SSA’s Chief Actuary estimated a cost avoidance of about $3.4 billion over 7 years with $125 million to be
     realized semiannually from 1995 to 2001.

     4 Administrative Costs Claimed at the Missouri Disability Determination Services (A-07-97-51006), May 17, 1999; Audit of


     Administrative Costs Claimed by the Ohio Rehabilitation Services Commission for Its Bureau of Disability Determination

     (A-13-98-51007), September 24, 1999; School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007),

     September 27, 1999; The Social Security Administration’s Controls over Impairment-Related Work Expense Income Exclusions

     (A-01-98-61010), December 20, 1999; The Social Security Administration’s Procedures for Presumptive Disability Payments

     (A-01-98-21005), March 2, 2000; The Social Security Administration Incorrectly Paid Attorney Fees on Disability Income Cases

     when Workers’ Compensation Payments Were Involved (A-04-98-62001), March 8, 2000.


     5   See footnote number 3.

     6 Management Advisory Report: Welfare Reform Childhood Redetermination Accuracy (A-01-98-62012), March 3, 1999 ; Use of

     Plans for Achieving Self-Support to Obtain Supplemental Security Income Benefits (A-01-98-61006), September 20, 1999;
     Review of Controls Over Nonwork Social Security Numbers (A-08-97-41002), September 29, 1999; Reliability of Diagnosis
     Codes Contained in the Social Security Administration’s Data Bases (A-01-99-61001), March 14, 2000.

     7   Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005), September 27, 1999.
                                                                    56
            Reports Issued From

                             From
           October 1, 1999, Through

                            Through
               March 31, 2000

                           2000
     Audit Summary


                Total Number of Reports Issued                                                27

                Total Questioned Costs                                                $108,410

                Total Funds Put to Better Use                                     $45,516,955



     Reports issued with Nonmonetary Findings

 Date                                                                                              Report
                                        Title of Report
Issued                                                                                             Number
             Review of Internal Controls Over the Processing of One-
11/09/99                                                                                        A-05-97-61001
             Check-Only Payments (CONFIDENTIAL5)
             Audit of the Social Security Administration’s Fiscal Year 1999
11/19/99                                                                                        A-15-99-51008
             Financial Statements
             Performance Measure Review: Survey of the Sources of the
11/22/99                                                                                        A-02-98-01004
             Social Security Administration’s Performance Measure Data
             Selected Procedures Used in the Social Security
11/22/99     Administration’s Asbestos Management Program for Its Main                          A-13-98-91026
             Complex
             Beneficiaries Expressing Interest in Vocational Rehabilitation
11/26/99                                                                                        A-01-97-61004
             Services Through a Continuing Disability Review Mailer
             Audit of Quality Review Process at the Office of Central
11/26/99                                                                                        A-03-97-31002
             Operations



     5A confidential report contains restricted information for official use. Distribution is limited to
     authorized officials and is not for public distribution.
                                                          57
           Review of the Social Security Administration’s Fiscal Year
11/29/99                                                                    A-02-99-03007
           2000 Annual Performance Plan
           Performance Measure Review: Reliability of the Data Used to
12/20/99   Measure the Dollar Accuracy of Old-Age and Survivors             A-02-98-01001
           Insurance Payment Outlays
           Support Services for Contingency Planning at the Social
01/03/00   Security Administration’s National Computer Center               A-13-98-12039
           (CONFIDENTIAL)
           Single Audit of the State of New York for the Fiscal Year
01/06/00                                                                    A-77-00-00001
           Ended March 31, 1997
           The Social Security Administration is Pursuing Matching
01/19/00   Agreements with New York and Other States Using Biometric        A-08-98-41007
           Technologies
           Management Advisory Report: The Social Security
01/31/00                                                                    A-13-98-12041
           Administration’s Warning Banner Implementation
           The Social Security Administration’s Earnings Suspense File
02/07/00                                                                    A-03-97-31003
           Tactical Plan and Efforts to Reduce the File’s Growth and Size
           Performance Measure Review: Reliability of the Data Used to
03/01/00                                                                    A-01-99-91003
           Measure Welfare Reform Childhood Disability Reviews
           Performance Measure Review: Reliability of the Data Used to
03/20/00                                                                    A-02-99-01009
           Measure Social Security Number Request Processing
           Performance Measure Review: Reliability of the Data Used to
03/20/00                                                                    A-02-99-01010
           Measure Representative Payee Actions
           Performance Measure Review: Reliability of the Data Used to
03/20/00   Measure Personal Earnings and Benefit Estimate Statement         A-02-99-01011
           Processing
           Performance Measure Review: Reliability of the Data Used to
03/20/00   Measure the Timeliness of Supplemental Security Income           A-02-99-11005
           Aged Claims Processing
           Performance Measure Review: Reliability of the Data Used to
03/21/00   Measure the Timeliness of Old-Age and Survivors Insurance        A-02-99-11006
           Claims Processing
           Performance Measure Review: Reliability of the Data Used to
03/21/00                                                                    A-02-99-01008
           Measure the Posting of Earnings Items
           Performance Measure Review: Summary of
03/21/00   PricewaterhouseCoopers’, LLP Review of the Social Security       A-02-00-20024
           Administration’s Performance Data




                                             58

     Reports With Questioned Costs

 Date                                                         Report          Dollar
                         Title of Report
Issued                                                        Number         Amount
           Single Audit of the Arkansas Disability
11/01/99   Determination Services for the Fiscal Year        A-77-99-00014        $5,329
           Ended September 30, 1997
           Workers’ Compensation Unreported by Social
12/06/99                                                     A-04-98-64002      $85,843
           Security Beneficiaries
           The Social Security Administration Incorrectly
           Paid Attorney Fees on Disability Income Cases
03/08/00                                                     A-04-98-62001      $17,238
           when Workers’ Compensation Payments were
           Involved
Total                                                                          $108,410



     Reports With Funds Put to Better Use

 Date                                                         Report          Dollar
                         Title of Report
Issued                                                        Number         Amount
           The Social Security Administration’s Controls
12/20/00   over Impairment-Related Work Expense              A-01-98-61010    $1,977,891
           Income Exclusions
           The Social Security Administration’s
03/02/00   Procedures for Presumptive Disability             A-01-98-21005     $713,156
           Payments
           The Social Security Administration Incorrectly
           Paid Attorney Fees on Disability Income Cases
03/08/00                                                     A-04-98-62001   $33,852,529
           when Workers’ Compensation Payments Were
           Involved
           Reliability of Diagnosis Codes Contained in the
03/14/00                                                     A-01-99-61001    $8,973,379
           Social Security Administration’s Data Bases
Total                                                                        $45,516,955




                                             59

60

Appendices

Appendices




    61

62

                         Appendix A

                                  A
       Government Performance and Results Act Work Plan

In Fiscal Year (FY) 1999, we developed a 3-year work plan to review the Social
Security Administration’s (SSA) implementation of the Government Performance
and Results Act (GPRA). The plan is based on SSA’s Revised FY 2000 Annual
Performance Plan. As part of its Performance Plan, SSA has established the
following broad strategic goals, which encompass its program activities.

             �   To promote valued, strong, and responsive Social Security
                 programs and conduct effective policy development,
                 research, and program evaluation

             �   To deliver customer-responsive, world-class service

             �   To make SSA program management the best-in-business,
                 with zero tolerance for fraud and abuse

             �   To be an employer that values and invests in each employee

             �   To strengthen public understanding of the Social Security
                 programs

Each of these strategic goals has supporting strategic objectives and corresponding
performance indicators and goals.

The following is our plan for reviewing SSA’s GPRA implementation and
performance measures. As performance measures and goals change in future
Annual Performance Plans, we will adjust our work plan accordingly.




                                         63
                       FY 1999 – Completed Reviews

In FY 1999, we conducted performance measure reviews to determine the reliability
of the data used to measure the following SSA performance indicators and goals.

Strategic Goal: To deliver customer-responsive, world-class service

Objective: By 2002, to have 9 out of 10 customers rate SSA’s service as good,
very good, or excellent, with most rating it excellent
                Performance Indicator                          FY 2000 Goal
�  Percent of SSA’s core business customers rating
                                                          � 88
   SSA’s overall service as excellent, very good, or good
� Percent of SSA’s core business customers rating
                                                          � 37
   SSA’s overall service as excellent
� Percent of SSA’s core business customers rating the
   clarity of SSA’s notices as excellent, very good, or   � 82
   good
Objective: To raise the number of customers who receive service and payments
on time
                Performance Indicator                          FY 2000 Goal
�   Percent of original and replacement Social Security
    number (SSN) cards issued within 5 days of            �   97
    receiving all necessary information




                                        64

                       FY 2000 – Completed Reviews

In FY 2000, we completed a survey of the data sources SSA uses to produce its
performance data and a review of the FY 2000 Annual Performance Plan. We also
completed performance measure reviews to determine the reliability of the data
used to measure the following SSA performance indicators and goals.

Strategic Goal: To deliver customer-responsive, world-class service
              Output Measures for Major Budgeted Workloads
�   Retirement, Survivors Insurance claims processed              �        3,134,800
�   Supplemental Security Income (SSI) aged claims processed      �         144,200
�   SSN requests processed                                        �    16,300,000
Objective: To raise the number of customers who receive service and payments
on time
                     Performance Indicator                        FY 2000 Goal
�   Percent of Old-Age and Survivors Insurance (OASI) claims
    processed by the time the first regular payment is due or     �   83
    within 14 days from effective filing date, if later
�   Percent of initial SSI aged claims processed within 14 days
                                                                  �   66
    of filing date

Strategic Goal: To make SSA program management the best-in-business, with
zero tolerance for fraud and abuse
              Output Measures for Major Budgeted Workloads
�   Continuing Disability Reviews (CDR) processed                 �     1,882,700
�   Annual Earnings postings                                      �   258,900,000
�   Representative Payee actions                                  �     6,990,600
Objective: To make benefit payments in the right amount
                   Performance Indicator                         FY 2000 Goal
� Dollar accuracy of OASI payment outlays:
   � Percent without overpayments                               � 99.8
   � Percent with underpayments                                 � 99.8
Objective: To maintain through 2002, current levels of accuracy and timeliness
in posting earnings data to individuals’ earnings records
                   Performance Indicator                         FY 2000 Goal
� Percent of wage items posted to individuals’ records by
                                                                � 98
    September 30
                                        65
Strategic Goal: To strengthen public understanding of the Social Security
programs

Objective: By 2005, 9 out of 10 customers will be knowledgeable about the Social
Security programs in 5 important areas
               Performance Indicator                            FY 2000 Goal
�   Percent of individuals issued SSA-Initiated Personal
    Earnings and Benefit Estimate Statement (PEBES)        �   100
    as required by law




                                        66

                         FY 2000 – Planned Reviews

Before the close of FY 2000, we plan to complete performance measure reviews of:

�   SSA’s FY 1999 Annual Performance Report, and

�   SSA’s 2001 Annual Performance Plan.

We also plan to conduct reviews that will determine the reliability of the data used
to measure the following SSA performance indicators and goals.

Strategic Goal: To deliver customer-responsive, world-class service
               Output Measures for Major Budgeted Workloads
�   Initial disability claims processed                             �        2,144,000
�   Disability claims pending                                       �         408,000
�   Hearings processed                                              �         622,400
�   Hearings pending                                                �         209,000
�   800-number calls handled                                        �    60,000,000
Objective: By 2002, to have 9 out of 10 customers rate SSA’s service as good,
very good, or excellent, with most rating it excellent
                     Performance Indicator                          FY 2000 Goal
�   Percent of callers who successfully access the 800-number
                                                                    �   92
    within 5 minutes of their first call
�   Percent of callers who get through to the 800-number on
                                                                    �   86
    their first attempt
�   Percent of public with an appointment waiting 10 minutes or
                                                                    �   85
    less
�   Percent of public without an appointment waiting
                                                                    �   70
    30 minutes or less
�   Percent of 800-number calls handled accurately:
    � Service accuracy                                              �   90
    � Payment accuracy                                              �   95




                                          67
Objective: To raise the number of customers who receive service and payments
on time
                  Performance Indicator                          FY 2000 Goal
�   Initial disability claims average processing (days)               �   115
�   Hearings average processing time (days)                           �   257


Strategic Goal: To make SSA program management the best-in-business, with
zero tolerance for fraud and abuse
               Output Measures for Major Budgeted Workloads
�   SSI nondisability redeterminations                                �   2,238,550

Objective: To make benefit payments in the right amount

                    Performance Indicator                             FY 2000 Goal
�   Disability Determination Services decisional accuracy rate        �   97

�   Percent of SSNs issued accurately                                 �   99.8

Objective: To maintain through 2002, current levels of accuracy and timeliness
in posting earnings data to individuals’ earnings records
                    Performance Indicator                             FY 2000 Goal

�   Percent of earnings posted correctly                              �   99


Objective: To increase debt collections by 7 percent annually through 2002
                  Performance Indicator                              FY 2000 Goal
�   Old-Age, Survivors and Disability Insurance (OASDI)
                                                                 �   $1,274.9 million
    debt collected
�   SSI debt collected                                           �   $684.8 million

Strategic Goal: To be an employer that values and invests in each employee

Objective: To provide a physical environment that promotes the health and
well-being of employees
                    Performance Indicator                             FY 2000 Goal
�   Percent of employees reporting they are satisfied with the
                                                                      �   75
    level of security in their facility

                                           68

                            FY 2001 – Planned Reviews

In FY 2001, we plan to conduct performance measure reviews of:

�   SSA’s FY 2000 Annual Performance Report, and

�   SSA’s FY 2002 Annual Performance Plan.

We also plan to conduct reviews that will determine the reliability of the data used
to measure the following SSA performance indicators and goals.

Strategic Goal: To promote valued, strong, and responsive Social Security programs
and conduct effective policy development, research, and program evaluation

Objective: To promote changes based on research and evaluation analysis, that shape
the OASI and Disability Insurance (DI) programs in a manner that takes account of
future demographic and economic challenges, provides an adequate case of economic
security for workers and their dependents, and protects vulnerable populations
          Performance Indicator                                         FY 2000 Goal
�   Identification, development, and utilization        �   Identify and define barometer measures to
    of appropriate barometer measures for                   be used
    assessing the effectiveness of OASDI
    programs
�   Preparation of analyses and reports on the          Prepare analyses and reports in the following
    effect of OASDI programs on different               topics:
    populations to identify areas for policy            � The effect of OASDI programs on women
    change and develop options as appropriate           � The effect of OASDI programs on minorities
                                                        � The effect of OASDI programs on low-wage
                                                            workers benefits
                                                        � Analysis on the effect of changes in Social
                                                            Security benefits on the DI program
�   Preparation of analyses and reports on              Prepare analyses in the following topics:
    demographic, economic, and international            � Trends in marriage, divorce, and re-
    trends and their effects on OASDI programs             marriage on Social Security programs
    in order to anticipate the need for policy          � Immigration and Social Security
    change and develop options as appropriate           � Lifetime redistributional effects of Social
                                                           Security cohorts
                                                        � International retirement policy reforms

�   Preparation of research and policy                  �   Prepare analyses on the distributional and
    evaluation necessary to assist the                      fiscal effects of solvency proposals developed
    Administration and Congress in developing               by the Administration, Congress, and other
    proposals to strengthen and enhance the                 policymakers
    solvency of OASDI programs




                                                   69
Strategic Goal: To promote valued, strong, and responsive Social Security programs
and conduct effective policy development, research, and program evaluation

Objective: To promote changes based on research and evaluation analysis, that shape
the SSI program in a manner that protects vulnerable populations, anticipates evolving
needs of SSI populations, and integrates SSI payments with other social benefit programs
to provide a safety net for aged, blind, and disabled individuals
                 Performance Indicator                                    FY 2000 Goal
�   Identification, development, and utilization of              �   Identify and define barometer
    appropriate barometer measures for assessing the                 measures to be used
    effectiveness of SSI program
�   Expansions and acquisition of data on the characteristics    �   Link survey data with
    of SSI populations in order to improve capacity to provide       programmatic data
    analyses, identify areas for policy change, and develop
    options as appropriate
�   Preparation of a report and completion of data collection    �   Prepare final report on the
    of the SSI Childhood Disability Survey in order to asses         effects of 1996 welfare reform
    the impact of welfare reform, identify areas of potential        legislation on SSI children
    policy change, and develop options as appropriate                with disabilities
                                                                 �   Begin implementation of a
                                                                     national survey of children
                                                                     with disabilities
�   Preparation of analysis on sources of support for the SSI    �   Prepare the analysis
    population in order to identify areas for better
    coordination with other social benefits and develop
    options as appropriate

Objective: To promote policy changes based on research and evaluation analysis, that
shape the Disability program in a manner that increases self-sufficiency and takes
account of changing needs based in the medical, technological, demographic, job market,
and societal trends
                  Performance Indicator                                    FY 2000 Goal
�   Number of DI adult worker beneficiaries who begin a          �   17,600
    trial work period
�   Increase in the number of SSI disabled beneficiaries,        �   10 percent
    aged 18-64, who are working
�   Preparation of a research design to develop techniques for   �   Award a contract to design a
    validating medical listings                                      methodology to validate a
                                                                     single listing
�   Preparation of reports on results of the Disability          �   Complete pilot study
    Evaluation Study in order to identify potentially eligible
    disabled populations, interventions that enable continued
    work effort among the disabled, and guide changes to the
    disability decision process
�   Establish a Disability Research Institute                    �   Award contract to establish
                                                                     the Disability Research
                                                                     Institute
                                                 70

Objective: Provide information for decisionmakers and others on the Social Security
and SSI programs through objective and responsive research, evaluation, and policy
development
                    Performance Indicator                                       FY 2000 Goal
�   Percent of customers assigning a high rating to the quality of       �     Develop customer
    SSA’s research and analysis products in terms of accuracy,                 survey and data
    reliability, comprehensiveness, and responsiveness                         collection mechanism
�   Issuance of periodically updated research and policy agenda          �     Issue the initial
                                                                               research and policy
                                                                               agenda


Strategic Goal: To deliver customer-responsive, world-class service

Objective: By 2002, to have 9 out of 10 customers rate SSA’s service as good, very good,
or excellent, with most rating it excellent
              Performance Indicator                                     FY 2000 Goal
�   Percent of employers rating SSA’s overall service as
                                                            �   93
    excellent, very good, or good
�   Percent of employers rating SSA’s overall service as
                                                            �   13
    excellent
Objective: By 2002, to increase the range of program information services available to
customers over the phone or electronically
              Performance Indicator                                     FY 2000 Goal
�   New or expanded service available over the phone        �   Take retirement or survivors
                                                                claims immediately over the
                                                                telephone, or in person, as long as
                                                                the applicant has all the
                                                                information needed
�   New or expanded service available electronically        �   Provide overnight electronic SSN
                                                                verification for employers
                                                            �   Give employers the option to
                                                                transmit wage reports to SSA
                                                                electronically using a personal
                                                                computer or high-speed data
                                                                transmission lines
                                                            �   Establish capacity to receive
                                                                secure, on-line public inquiries
                                                                about claims and benefits
�   Number of customers accessing Social Security on-       �   15.8 million
    line
�   Percent increase in the number of automated SSA-        �   50 percent (Baseline to be
    initiated PEBES inquiries processed on Internet             established in FY 1999)




                                                 71

Strategic Goal: To make SSA program management the best-in-business, with zero
tolerance for fraud and abuse

Objective: To make benefit payments in the right amount
                 Performance Indicator                                      FY 2000 Goal

�   Office of Hearings and Appeals decisional accuracy rate     �   87

Objective: To become current with DI and SSI CDR requirements by 2002

                 Performance Indicator                                      FY 2000 Goal

�   Percent of multi-year (FY 1996-2002) CDR plan
                                                                �   63
    completed

Objective: To aggressively deter, identify, and resolve fraud

                 Performance Indicator                                      FY 2000 Goal

�   Number of investigations conducted                          �   7,600
�   OASDI dollar amounts reported from investigative
                                                                �   $40 million
    activities
�   SSI dollar amounts reported from investigative activities   �   $80 million
�   Number of criminal convictions                              �   2,000


Strategic Goal: To be an employer that values and invests in each employee

Objective: To provide the necessary tools and training to achieve a highly skilled and high-
performing workforce

                  Performance Indicator                                     FY 2000 Goal

�   Percent of offices with access to Interactive Video         �   100 percent
    Training/Interactive Distance Learning
�   Formal management development programs                      �   Senior Executives Service
    implemented                                                     completed
                                                                �   Continue Advanced
                                                                    Leadership Program
                                                                �   Continue Leadership Program
�   Percent of managerial staff participating in                �   33 1/3 percent
    management/leadership development experiences




                                                 72

Objective: To provide a physical environment that promotes the health and well-being
of employees
               Performance Indicator                                  FY 2000 Goal
�    Percent of environmental air quality surveys          �   20 percent facilities surveyed
     completed and percent of the corrective actions       �   75 percent corrective actions taken
     taken when called for
�    Number of facilities having water quality testing     �   600 facilities tested
     and percent of corrective actions taken when called   �   100 percent corrective actions
     for                                                       taken
�    Number of relocated offices having security surveys   �   150 offices surveyed
     and percent of accepted security recommendations      �   85 percent accepted
     implemented                                               recommendation implemented

Objective: To promote an Agency culture that successfully incorporates our values

               Performance Indicator                                  FY 2000 Goal
�    Create Agency change strategy                         �   Develop and implement strategy

Objective: To create a workforce to service SSA’s diverse customers in the 21st century

               Performance Indicator                                  FY 2000 Goal
�    Complete Agency plan for transitioning to the         �   Implement competency-based
     workforce of the future                                   models for recruitment and
                                                               training needs assessment
                                                           �   Complete employee survey
                                                           �   Publish transition plan


Strategic Goal: To strengthen public understanding of the Social Security programs

Objective: By 2005, 9 out of 10 Americans will be knowledgeable about the Social Security
programs in 5 important areas
                Performance Indicator                                  FY 2000 Goal

�    Percent of public who are knowledgeable about
                                                           �   65 percent
     Social Security programs


    The complete text of SSA’s Strategic Plan can be found on the

                      internet at www.ssa.gov.





                                                 73

74

                                 Appendix B

                                          B
             Reporting Requirements Under the Omnibus Consolidated
                     Appropriations Act for Fiscal Year 1997

        To meet the requirements of the Omnibus Consolidated Appropriations Act for 1997
        (Public Law 104-208), we are providing in this report, requisite data for this
        reporting period from the Offices of Investigations and Audit.

        We are reporting $14,573,989 in Social Security Administration (SSA) funds and
        $49,596,604 in non-SSA funds as a result of our investigative activities in this
        reporting period. These funds are broken down in the table below.

  Types of
                        1st Quarter               2nd Quarter                    Total
   Funds
                      SSA        Non-SSA        SSA         Non-SSA        SSA         Non-SSA

Court-Ordered
                    $3,245,187   $38,826,930   $3,387,856   $3,278,942    $6,633,043   $42,105,872
Restitution
Scheduled
                    $2,777,898       $93,378   $3,103,928    $611,139     $5,881,826      $704,517
Recoveries
Fines                 $935,189       $82,638    $265,445     $196,367     $1,200,634      $279,005

Settlements/
                      $148,569    $1,922,620    $709,917    $4,584,590     $858,486      $6,507,210
Judgments

Total               $7,106,843   $40,925,566   $7,467,146   $8,671,038   $14,573,989   $49,596,604


        SSA management informed the Office of Audit that it completed implementing
        recommendations from the following audit report during this fiscal year valued at
        $1.2 million.

        Audit of Administrative Costs Claimed by the Ohio Rehabilitation Services
        Commission for Its Bureau of Disability Determination (A-13-98-51007),
        September 24, 1999

        We recommended that SSA instruct the State of Ohio Rehabilitative Services
        Commission to require the Ohio State Bureau of Disability Determination to amend
        its Forms SSA-4513 by a $28,895 increase, $871,223 decrease and $266,800
        decrease for Fiscal Years 1995, 1996, and 1997, respectively, to adjust obligations.
        SSA implemented this recommendation in March 2000. The implemented
        recommendation is valued at $1.2 million.



                                                 75
76

                         Appendix C

                                  C
Significant Monetary Recommendations From Prior Reports for
      Which Corrective Actions Have Not Been Completed

School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007),
September 27, 1999

Request assistance from school officials in identifying and reporting changes in
student attendance that may affect their benefit status.

Southwest Tactical Operations Plan: Investigative Results (A-06-97-22008),
March 31, 1998

Develop guidance on using locally determined characteristics warranting in-depth
investigation to accurately determine residency status.




                                         77
78

                         Appendix D

                                  D
Significant Nonmonetary Recommendations From Prior Reports
    for Which Corrective Actions Have Not Been Completed

The Social Security Administration’s Estimation of Excess Federal
Insurance Contribution Act Taxes (A-13-97-51015), March 25, 1999

The Social Security Administration (SSA) should establish a task force with the
Internal Revenue Service to initiate a formal Memorandum of Understanding on
the protocol for: 1) sharing excess Federal Insurance Contribution Act wage data
and 2) resolving/reconciling any difference between them.

Early Alert: Disclosure of Personal Information on Representative Payees
(A-01-99-82008), January 21, 1999 (Confidential Report)

SSA should verify the death information for the 6,004 representative payees –
5,352 individuals serving as representative payees for Old-Age, Survivors and
Disability Insurance beneficiaries and 652 individuals serving as representative
payees for Supplemental Security Income recipients. Our match shows as deceased
on the death master file but currently serving as representative payees for
beneficiaries on the Master Beneficiary Record and the Supplemental Security
Record.

Special Joint Vulnerability Review of the Supplemental Security Income
Program (A-04-95-06020), December 16, 1997

Modify the Supplemental Security Income display terminal to include additional
comments or codes for the identification of potential fraud/abuse cases, subject to
SSA’s evaluation of the most advantageous method of presentation on the
Supplemental Security Income display.




                                          79
80

                         Appendix E

                                  E
    Management Decisions With Which the Inspector General
                         Disagrees

Review of Controls over Nonwork Social Security Numbers (A-08-97-41002),
September 29, 1999

Propose legislation to prohibit the crediting of earnings and related quarters of
coverage for purposes of benefit entitlement to Social Security numbers assigned for
nonwork purposes.

Effects of State Awarded Workers’ Compensation Payments on Social
Security Benefits (A-04-96-61013), September 30, 1998

Recognize and identify workers’ compensation offset as a reportable internal control
weakness under the Federal Managers’ Financial Integrity Act, including its
significant $526.7 million effect on the Master Beneficiary Record, and the
shortcomings in the administration and processing of workers’ compensation offsets.




                                         81
82

                         Appendix F

                                  F
Significant Management Challenges Facing the Social Security
                     Administration

In the past few years, all Offices of the Inspector General (OIG) have received
correspondence from members of Congress, led by Congressman Dick Armey, that
ask OIGs to provide a list of significant management challenges facing their
organization. Our office found that this request could be used as a guide in
developing our Audit Work Plan and in focusing the use of our investigative
resources.

In December 1999, we responded to the most recent request from the members that
included an assessment of the most serious management challenges; identification
of the progress the Social Security Administration (SSA) is making to address many
of the major management problems; and whether agency programs are achieving
intended results.

OIG and SSA agree that the first area of concern is SOLVENCY of the Trust Fund.
During the past few years, the economy has been strong but not strong enough to
impact on the expected number of “baby boomers” who will retire in the near future.
Beginning in the Year 2014, expenditures from the Trust Fund will exceed tax
income. To address this issue, the President and Congress are engaged in a bi­
partisan reform effort and the General Accounting Office is studying SSA’s
actuarial assumptions to determine their accuracy.

Even though SSA successfully transitioned to Year 2000, SYSTEMS SECURITY
AND CONTROLS remain a management challenge. SSA has made notable
progress to strengthen and improve controls of the protection of information and
separation of duties. However, our audit work identified a number of deficiencies in
contingency planning which would impair SSA’s ability to respond effectively to a
disruption in business operations as a result of a disaster or long-term crisis.

SSA is bound by complicated guidelines in administering its programs. PROGRAM
COMPLEXITY in Supplemental Security Income (SSI) makes it particularly
difficult to administer. SSI eligibility depends on self-reporting, and self-reporting
requirements affect payment accuracy. OIG provides the lead for the Agency’s
Payment Accuracy Task Force. This task force provides recommendations to the
Agency on how it can improve its payment accuracy rate. SSA issued its own report
that identifies some of the complex areas of the SSI program and outlines
management improvements that are in progress. These efforts should result in
increased SSI payment accuracy.


                                          83
FRAUD RISK, especially in the SSI program, is a major concern. The FRAUD
RISK in the SSI program is mainly connected to the self-reporting. SSA has
initiated two programs to detect fraud in the self-reporting of income—access to
State records on-line and access to Office of Child Support Enforcement data bases.
The Cooperative Disability Investigations teams have been very effective in
detecting and preventing SSI and disability fraud. We also work with the Agency to
identify and terminate payments to incarcerated SSI recipients. SSA is committed
to deterring fraud and has included this as a key initiative in its Strategic Plan.

OIG reviews concluded that SSA demonstrates a commitment to the
GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA) and has improved
the usefulness of its Annual Performance Plan. However, we also identified three
concerns. First, there are weaknesses in data sources and inaccurate
measurements that impact the reliability of the performance data. Second,
performance indicators are not established for all major management challenges
and do not always reflect a clear measure of performance. Finally, the resources
needed to achieve planned performance are not fully identified. The Agency will
take these concerns into consideration when drafting its next Annual Performance
Plan. There are 13 GPRA-related reviews committed for Fiscal Year (FY) 2000.

SSA issued a report that identifies three areas where improvement is needed in the
disability adjudication process, which is a major part of the DISABILITY
REDESIGN Initiative. The Agency began pilot programs in 10 States that
incorporates summary rationales; eliminates the reconsideration step at the
Disability Determination Services offices; and expedites the Office of Hearings and
Appeals process. OIG will assess the success of these initiatives at the appropriate
time.

The EARNINGS SUSPENSE FILE is a file of wage items and does not represent a
“fund” of money. The file consists of wage items that failed to match SSA’s name
and Social Security number (SSN) validation criteria. Over the past 8 years, the
Suspense File has grown at an average of 5 million wage items and $17 billion
annually. SSA developed a tactical plan to reduce the rate of growth but the cure is
long-term and does not address all issues adequately. OIG has linked SSN misuse
and identity theft to the Suspense File and because of that, we feel that a timely
resolution to this problem is of the utmost importance.

SSA is committed to providing world-class SERVICE TO THE PUBLIC but it
continues to be a challenge facing the Agency. As a result of downsizing and hiring
restrictions, SSA is limited in strengthening and revitalizing employee ranks. Also,
the workforce is aging and a significant amount is expected to retire at the same
time that the workload is expected to increase. SSA is seeking alternative methods




                                         84
to provide service delivery options to the public. OIG will continue to monitor the
Agency’s efforts to ensure that there is no trade-off between fraud prevention and
customer service.

Through its ENUMERATION process, SSA issued over 16 million original and
replacement SSN cards in FY 1999 to U.S. citizens and aliens. Our audit and
investigative work show that some SSN applications are processed based on false
documentation. SSA should expect an increase in this fraudulent activity since the
SSN is a “breeder document” to obtain other means of identification and there is a
market for SSNs for individuals who want to hide their earnings or work illegally.
SSA needs to improve controls over the verification of evidentiary documents.
Fraud committed during the ENUMERATION process directly affects the Earnings
Suspense File and leads us to the last identified challenge facing the Agency.

IDENTITY THEFT occurs when someone uses an individuals personal information
without his or her knowledge to commit a crime. It can affect financial institutions
and Government programs. False identities are used to defraud SSA.
Unscrupulous individuals can assume the identity of another person who is either
alive or dead and work under the stolen SSN, while receiving disability benefits
under their own SSN. SSA has recognized the need to reduce its vulnerability to
identity theft but current initiatives concentrate on detection rather than
prevention. SSA faced the difficult challenge of balancing anti-fraud measures and
achieving its goal of world-class service.




                                         85
86

     Glossary of Abbreviations

                 Abbreviations
ACA       Agricultural Credit Association
AFDC      Aid To Families With Dependent Children
ALJ       Administrative Law Judge
AMD       Allegation Management Division
APP       Annual Performance Plan
CDI       Cooperative Disability Investigations
CDR       Continuing Disability Review
CID       Critical Infrastructure Division
CMP       Civil Monetary Penalty
DDS       Disability Determination Services
DERO      Division of Earnings Record Operations
DES       Division of Employer Services
DI        Disability Insurance
ECT       Electronic Crime Team
ESF       Earnings Suspense File
FBI       Federal Bureau of Investigation
FFMIA     Federal Financial Management Improvement Act of 1996
FRSC      Federal Records Service Corporation
FTC       Federal Trade Commission
FY        Fiscal Year
GPRA      Government Performance and Results Act
HHS       Department of Health and Human Services
HIPAA     Health Insurance Portability and Accountability Act of 1996
INS       Immigration and Naturalization Service




                              87
IRS     Internal Revenue Service
MBR     Master Beneficiary Record
OA      Office of Audit
OASDI   Old-Age, Survivors and Disability Insurance
OASI    Old-Age and Survivors Insurance
OCIG    Office of the Counsel to the Inspector General
OCO     Office of Central Operations
OEO     Office of Executive Operations
OI      Office of Investigations
OIG     Office of the Inspector General
OPM     Office of Personnel Management
PC      Processing Center
PEBES   Personal Earnings and Benefit Estimate Statement
PSC     Program Service Center
PwC     PricewaterhouseCoopers, LLP
QAPRD   Quality Assurance and Professional Responsibility Division
QRP     Quality Review Process
QRT     Quick Response/Fraud Liaison Team
SSA     Social Security Administration
SSI     Supplemental Security Income
SSN     Social Security Number
SSR     Supplemental Security Record
USMS    U.S. Marshals Service
VA      Veterans Affairs
VR      Vocational Rehabilitation
VRA     Vocational Rehabilitation Agency
WC      Workers’ Compensation



                            88
           How to Report Fraud

                         Fraud
The Social Security Administration’s (SSA), Office of the Inspector General (OIG)
Fraud Hotline offers a convenient means for you to provide information on
suspected fraud, waste, and abuse. If you know of current or potentially illegal or
improper activities involving SSA programs or personnel, we encourage you to
contact the SSA OIG Fraud Hotline.




                                  CALL
                                 1-800-269-0271




                                WRITE
                       Social Security Administration
                       Office of the Inspector General
                     Attention: SSA OIG Fraud Hotline
                               P.O. Box 17768
                           Baltimore, MD 21235




                               E-MAIL
                               oig.hotline@ssa.gov




                                         89
90

  Office of the Inspector General

                          General
      Organizational Chart

                        Chart

                   INSPECTOR GENERAL




                         DEPUTY
                   INSPECTOR GENERAL




 OFFICE OF
   THE                     OFFICE OF
 COUNSEL      OFFICE       EXECUTIVE      OFFICE OF
  TO THE     OF AUDIT                  INVESTIGATIONS
                          OPERATIONS
INSPECTOR
 GENERAL
       Social Security Administration
       Office of the Inspector General
          6401 Security Boulevard
        Suite 300 Altmeyer Building
        Baltimore, MD 21235-0001




To obtain additional copies of this report

             Visit our web site

          http://www.ssa.gov/oig/

                    OR

                    Call

               (410) 966-5998
